<html>
<title> - HEARING ON THE NOMINATION OF GINA McCARTHY TO BE ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY</title>
<body><pre>[Senate Hearing 113-701]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-701

                   HEARING ON THE NOMINATION OF GINA
  McCARTHY TO BE ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 11, 2013

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works




       Available via the World Wide Web: http://www.gpo.gov/fdsys















                                                        S. Hrg. 113-701

                   HEARING ON THE NOMINATION OF GINA
  McCARTHY TO BE ADMINISTRATOR OF THE ENVIRONMENTAL PROTECTION AGENCY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2013

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.gpo.gov/fdsys
                               __________
                               
                               
                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-392 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     ROGER WICKER, Mississippi
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
JEFF MERKLEY, Oregon                 DEB FISCHER, Nebraska
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 11, 2013
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    35
Warren, Hon. Elizabeth, U.S. Senator from the State of 
  Massachusetts..................................................    38
Cowan, Hon. William M., U.S. Senator from the State of 
  Massachusetts..................................................    39
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    40
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    42
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....    49
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    50
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    51
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......    54
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........    56
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...    57
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    59
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    61
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    62
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    63
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York    64
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................   388
Crapo, Hon. Mike, U.S. Senator from the State of Idaho, prepared 
  statement......................................................   389

                                WITNESS

McCarthy, Gina, nominated to be Administrator of the U.S. 
  Environmental Protection Agency................................    65
    Prepared statement...........................................    68
    Responses to additional questions from:
        Senator Vitter...........................................    72
        Senator Inhofe...........................................   195
        Senator Barrasso.........................................   228
        Senator Sessions.........................................   239
        Senator Crapo............................................   259
        Senator Wicker...........................................   264
        Senator Boozman..........................................   273
        Senator Fischer..........................................   276
        Senator Boxer............................................   290
        Senator Carper...........................................   293
        Senator Baucus...........................................   296
        Senator Merkley..........................................   298
        Senator Udall............................................   300
        Senator Lautenberg.......................................   302
        Senator Gillibrand.......................................   304

                          ADDITIONAL MATERIAL

March 19, 2009, memorandum to heads of executive departments and 
  agencies from the Office of the Attorney General re: the 
  Freedom of Information Act.....................................   391
Memorandum to heads of executive departments and agencies from 
  President Obama re: the Freedom of Information Act.............   394
Memorandum to heads of executive departments and agencies from 
  President Obama re: Transparency and Open Government...........   395
April 23, 2009, memorandum from EPA Administrator Lisa Jackson to 
  all EPA employees re: Transparency in EPA's Operations.........   396
Memorandum from Malcolm D. Jackson, EPA Assistant Administrator 
  and Chief Information Officer, to all EPA employees............   401
Message from Bob Perciasepe, EPA Acting Administrator, to all EPA 
  employees......................................................   402
Two slides from a Records and ECMS Briefing for EPA incoming 
  political appointees (2009)....................................   404
March 19, 2013, POLITICO Pro Whiteboard article..................   406
EPA e-mails......................................................   407
Government Accountability Office statement re: National Archives 
  and Selected Agencies Need to Strengthen E-Mail Management.....   426
Government Accountability Office Report to Congressional 
  Requesters re: National Archives and Selected Agencies Need to 
  Strengthen E-Mail Management...................................   429
March 22, 2010, statement from Attorney-at-Law Eugene M. Trisko 
  to the EPA.....................................................   503
January 25, 2013, article, Coal decline hits fuel's Western 
  stronghold, published by Yahoo! News...........................   517

 
 HEARING ON THE NOMINATION OF GINA McCARTHY TO BE ADMINISTRATOR OF THE 
                    ENVIRONMENTAL PROTECTION AGENCY

                              ----------                              


                        THURSDAY, APRIL 11, 2013

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Vitter, Barrasso, Sanders, Inhofe, 
Carper, Fischer, Merkley, Wicker, Cardin, Sessions, Udall, 
Boozman, and Gillibrand.
    Also present: Senators Warren and Cowan.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order.
    We have members who have other obligations, we have a vote 
at 11. The plan is, we are going to start off with opening 
statements from the Chairman, the Ranking Member. Then we are 
going to move to the two people who are introducing Gina 
McCarthy, then we are going to move to colleagues in order of 
arrival as we usually do.
    We are going to have to break, I figure about 11:10, to 
make it to the floor, and then we will reconvene at 11:45. 
Because I think people are going to want to see the outcome of 
the vote and so on. So we will be working as long as we can, 
then we will reconvene at 11:45.
    I will open it up with my statement. Statements are going 
to be at least 6 minutes.
    Today, I welcome the President's nominee for Administrator 
at the Environmental Protection Agency, Gina McCarthy. Gina, 
you are one of the best qualified nominees ever to come before 
this Committee. Your combination of experience, intelligence, 
energy, expertise and integrity will make you a most effective 
EPA Administrator.
    Now, this is the second time you have been nominated for a 
top position at EPA. Previously, you were confirmed by the 
Senate without a recorded ``no'' vote.
    Why do I believe this nominee is the right person to take 
the helm at EPA? She has over three decades of public service 
at the local, State, and Federal levels. At a time when there 
can be a bitter divide in Washington, she has shown a strong 
bipartisan spirit. She has worked for both Republicans and 
Democrats: Republican Governor of Connecticut, Jodi Rell, three 
Republican Governors of Massachusetts, Paul Cellucci, Jane 
Swift, and Mitt Romney; and a Democratic President, Barack 
Obama.
    Because of her common-sense approach to protecting public 
health, Gina McCarthy has received support from businesses, 
health officials, environmental organizations, and scientists. 
I would ask unanimous consent to place into the record the 
letters and statements of support for Gina. Without objection.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Boxer. I strongly believe that Gina McCarthy's 
nomination should enjoy smooth sailing through this Committee 
and on the Senate floor.
    Now, a few of my Republican colleagues have asked some 
questions. It is their utter right to do so. I am glad they did 
so. But it is my fervent hope that those issues will be 
resolved quickly.
    One of the questions they have raised is the use of 
secondary work email accounts at EPA. It is important to note 
that this method of answering email was initiated by Republican 
EPA Administrator Christine Todd Whitman and was used by 
Republican EPA Administrator Stephen Johnson and Acting 
Administrator Marianne Horinko.
    Secondary emails have been used because top officials at 
the EPA have too many messages through their primary email 
account to be manageable. For example, Administrator Jackson 
received 1.5 million emails a year, more than 41,000 a day.
    For her secondary work email account, Administrator Jackson 
used the name ``Richard Windsor,'' Administrator Whitman used 
``ToWhit,'' Administrator Johnson used ``ToCarter,'' Acting 
Administrator Horinko used ``ToDuke,'' and Deputy Administrator 
Peacock used the name ``<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="396d565f4c795c4958175e564f17">[email&#160;protected]</a>''
    Republican members of this Committee wrote to Gina McCarthy 
just yesterday, just yesterday, with a number of new questions 
generally focusing on past EPA practices. EPA has provided 
extensive information and intends to continue to work with the 
Republican members on these issues.
    I totally disagree that EPA has been ``wholly 
unresponsive''--that is what our colleagues on the Republican 
side said--to the majority of issues raised in this letter. I 
am so hopeful that all outstanding issues can be addressed 
promptly and will not stop this most qualified candidate from 
moving forward.
    Look, EPA has a critical mission: to protect human health. 
Laws like the Clean Air Act have a great history. I remember a 
time not so long ago when the air was so dirty in Los Angeles 
it was hard to see out the window. Because of the EPA, there 
has been a dramatic improvement in air quality.
    I have a chart to prove what I have just said. In 1976, 
there were 166 air health alerts in Southern California. In 
2012, there were zero air alerts. This demonstrates remarkable 
progress that must be continued throughout the Country. Because 
if you care about this economy, there is one basic fact. If you 
can't breathe, you can't work. So we have to make sure people 
can breathe and be healthy.
    Compare this Clean Air Act success story to China. Some of 
my colleagues say, don't do anything, take the lead of China on 
climate change. Take a look at this. This is kind of a clear 
day in China. I was there for several days with colleagues on a 
trip. And this was considered a clear day.
    The American people get this. In January 2013, a bipartisan 
poll found that 78 percent of voters believe that clean air is 
extremely important, with 69 percent of voters favoring even 
stricter limits on air pollution. So the results are clear: the 
American people support the EPA, they support our landmark 
environmental and public health laws. And I am sure they also 
support transparency, which is something my colleagues insist 
on. And I agree with them completely.
    Gina McCarthy's service as Assistant Administrator over the 
past 4 years has led to something really good to share with 
you: reductions in mercury, arsenic, lead, and other toxic 
pollutants in our air. It is clear we are moving forward and 
people are healthier. I am confident that Gina McCarthy, after 
we hear her today, I think it will underscore how fair she is, 
how trustworthy she is, and I believe how she understands the 
law and the science.
    She has a deep understanding that the health and safety of 
the American people and a growing economy depend on clean air 
and safe drinking water. So I believe she will lead in the 
right direction in a bipartisan manner.
    Gina McCarthy, I strongly support your nomination. I am 
very excited about it. I hope, I really hope, that our 
colleagues will support you.
    With that, I turn to my Ranking Member, Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you very much, Chair Boxer, for 
convening today's hearing. And certainly, the EPA plays a 
critical role, not only in protecting our environment and 
health, but also impacting our economic competitiveness.
    I am concerned, as you know, that the central functions of 
the agency, quite frankly, have been obfuscated by ideology, 
frustrated by, yes, a severe lack of transparency, undermined 
by non-peer reviewed science that the agency often keeps hidden 
and implemented without regard to economic consequences. That 
is why, along with my Republican colleagues, I made those five 
specific requests, all related to transparency, which you 
underscore that you certainly support.
    I just want to correct for the record: those requests were 
not made yesterday. They were made public yesterday in writing. 
Exactly the same requests were made over 3 weeks ago in my one 
on one meeting with the nominee. To date, the EPA has chosen to 
completely ignore three and three-quarters of those requests.
    Although much-needed reforms in the Freedom of Information 
Act process seems to be moving forward, that is the one point 
where I think we have made real progress since that face to 
face meeting. The record there is really troublesome. And the 
proof will be in the pudding in terms of the EPA really 
implementing a new day. Because that FOIA process is broken and 
has been abused.
    Now, the agency was comfortable releasing personal and 
private information of small businesses and private citizens 
last month. But the EPA continues to abuse the exemptions under 
FOIA for the agency's own work.
    Now, the nominee recently stated that information is power. 
Apparently she also believes that withholding information is 
power. That is how the EPA has been acting. Since 1997, 
Congress has questioned the validity of and asked for the 
release of the underlying data for studies upon which the 
agency bases health benefits when issuing air-related rules. 
That is another one of our five points. And that wasn't 
yesterday. In fact, that wasn't even 3 weeks ago. That is a 
request that has been made by various people for years. The 
agency continues to hide this 30-year-old data, which the 
National Academy of Sciences stated should have little use for 
decisionmaking.
    I also think that the EPA eschews all cost-economic 
modeling that would verify the true impacts of the regulatory 
agenda that now provides this Country with the lowest work 
force participation rate since the Carter administration. In 
this regard, I think cost-benefit analyses are key, and more 
importantly, they are required under law, under executive 
orders and by the Clean Air Act, Section 321(a). But they are 
ignored as EPA remains intransigent in its opposition to having 
a full and transparent economic analysis process.
    Another big area of concern, which is another one of our 
five points, as you know, Madam Chairman, is backroom ``sue and 
settle'' deals, made with allies in the environmental 
community. It is perhaps one of the best, meaning worst, 
example of the agency's true aversion to sunlight.
    Now, the nominee before us today echoed her predecessor's 
sentiment, Lisa Jackson, during her own 2000 nomination 
hearing, when she said, and this is the nominee speaking about 
Administrator Jackson, ``Administrator Jackson made a promise 
that her EPA will be transparent in its decisionmaking. And 
that is what I will deliver. Transparency is more than sharing 
what the science and law is telling us, and it is more than 
making clear decisions that can stand the test of time, which 
we all know is of paramount importance.'' Unfortunately, I 
think it is clear in the last 4 years that the EPA has failed 
to keep those transparency promises.
    The real economic harm of the rules put forward during the 
last 4 years, most of which were crafted or signed off on by 
the nominee, and those in the coming 4, is quite frankly kept 
secret by a complex process of circumventing FOIA requests and 
congressional inquiries, by conducting official businesses 
using, yes, aliases, and also private email accounts. Private 
accounts are completely contrary to stated EPA policy. And by 
hiding and cherry-picking scientific data, by negotiating 
backroom sue and settle deals, and by the manipulation of cost-
benefit numbers.
    Let me give some specific examples of what this produces. 
In 2010, the infamous former EPA Region 6 administrator, Al 
Armandariz, became the poster child for EPA's efforts to try 
and shut down hydraulic fracturing by coordinating a public 
attack on range resources in Parker County, Texas, based on 
fabricated science. The EPA failed in their efforts in Parker 
County, once it became crystal clear about the lack of science. 
But Armanderes made clear he believed that new regs being 
developed by today's nominee and her office would be the 
``icing on the cake'' for killing many of those energy jobs.
    Second, EPA Administrator Region 8 James Martin resigned 
after lying to a Federal court, and after EPA lied that he was 
not using private email account to conduct official business 
and hide official business. Third, States are clearly, under 
Federal law, supposed to regulate regional haze. However, EPA, 
through one of these ``sue and settle'' agreements, has 
completely usurped State control of the program in an attempt 
to shut down coal-fired power plants. It has done this with the 
affected parties on the other side, like the States, having no 
role in the process, no say, no input, no seat at the table.
    So those are my concerns, and those are our concerns, the 
real-world impacts. That is why we continue to make these clear 
transparency demands, which I will be following up on, both 
here today and after today, before we vote. Thank you, Madam 
Chairman.
    [The prepared statement of Senator Vitter follows:]

                    Statement of Hon. David Vitter, 
                U.S. Senator from the State of Louisiana

    Thank you, Chairman Boxer, for convening today's hearing. 
The EPA plays a critical role in the status of not only our 
environment but our economic competitiveness. I am concerned 
that the central functions of the Agency have been obfuscated 
by ideology, frustrated by a severe lack of transparency, 
undermined by science the Agency keeps hidden, and implemented 
without regard for economic consequences.
    Along with my Republican colleagues, I have made five 
specific requests related to transparency at the agency. The 
requests were made 3 weeks ago privately, and were outlined in 
a letter to the nominee yesterday that was provided to the 
public. To date, EPA has chosen to ignore three and three-
quarters of those requests.
    Although much needed reforms in the Freedom of Information 
Act (FOIA) process seem to be moving forward, there is little 
doubt the process is broken and has been abused for some time. 
While the agency was comfortable releasing personal and private 
information of small businesses and private citizens last 
month, the EPA continues to abuse the exemptions under FOIA for 
the Agency's own work.
    The nominee recently stated that ``information is power.'' 
Apparently, she also believes that withholding information is 
power: Since 1997, Congress has questioned the validity of and 
asked for the release of the underlying data for studies upon 
which the Agency bases health benefits when issuing air related 
rules. The Agency continues to hide this 30-year-old data which 
the National Academy of Sciences stated should have little use 
for decisionmaking.
    The EPA eschews at all costs economic modeling that would 
verify the true impacts of the regulatory agenda that now 
provides this Country with the lowest workforce participation 
rate since the Carter administration. Cost/benefit analyses as 
required under various executive orders and as required by the 
CAA, Section 321(a), yet EPA remains intransigent in its 
opposition to having a transparent economic analysis process.
    The backroom ``sue and settle'' deals made with allies in 
the environmental community represent perhaps one of the best 
examples of the Agency's true aversion to sunlight. Rather than 
providing a process where impacted businesses could intervene 
in an otherwise closed-door negotiation, EPA objects to the 
idea of allowing anyone in the room that may not be like-minded 
in the settlement agreement.
    When the President took office in 2009, he promised that 
his Administration would be the most transparent in history, 
asserting, ``Information maintained by the Federal Government 
is a national asset. My Administration will take appropriate 
action, consistent with law and policy, to disclose information 
rapidly in forms that the public can readily find and use.'' 
The nominee before us today echoed her predecessor's sentiment 
during her own 2009 nomination hearing when she said, 
``Administrator Jackson made a promise that her EPA will be 
transparent in it decisionmaking, and that is . . . what I will 
deliver . . . transparency is more than sharing what the 
science and the law is telling us, and it is more than making 
clear decisions that can stand the test of time, which we all 
know is of paramount importance.'' EPA has failed to keep the 
promises of the President, the former Administrator, Lisa 
Jackson, and the nominee sitting before this committee today.
    This Agency as a whole, and the Office of Air and Radiation 
in particular, suppresses the consequences of its actions from 
the public; the real economic harm of the rules put forward 
during the last 4 years--most of which were crafted or signed 
off by the nominee--and those in the coming 4 is kept secret by 
a complex process of circumventing FOIA requests and 
congressional inquiries, conducting official business using 
alias and private email accounts, hiding and cherry-picking 
scientific data, negotiating backroom deals, and the 
manipulation of cost/benefit numbers.
    Let me provide some specific examples of the reasons for my 
concern:
     In 2010, infamous former EPA Region 6 Administrator Al 
Armendariz became the poster child for EPA's efforts to try and 
shut down hydraulic fracturing by coordinating a public attack 
on Range Resources in Parker County, Texas, based on fabricated 
science. In that same year, the appointee of President Obama 
let slip that EPA's ``general philosophy'' is to ``crucify'' 
and ``make examples'' of oil and gas companies regardless of 
guilt or wrongdoing. The EPA failed in their efforts in Parker 
County, but Armendariz made clear he believed that new 
regulations being developed by today's nominee and her office 
would be the ``icing on the cake'' for killing energy jobs.
     EPA Region 8 Administrator James Martin resigned after 
lying to a Federal court, and after EPA lied that he was not 
using his private email account to conduct official business in 
violation of the Federal Records Act and the Freedom of 
Information Act.
     EPA also tried to shut down a hydraulic fracturing 
project in Dimock, PA based on a faulty study, but failed to 
produce any real evidence of water contamination.
     EPA usurped cooperative federalism with the Cross State 
Air Pollution Rule (CSAPR) to force Federal Implementation 
Plans to reduce SO<INF>x</INF> and NO<INF>x</INF> emissions in 
27 States. Compliance would have led to closures of facilities 
and mining operations and an estimated increase of $514 million 
in consumer power prices. The D.C. Circuit shot down the rule 
in part due to EPA's overreach in the area of State authority . 
. . and the courts continue to batter multiple Agency 
decisions, particularly under the Clean Water Act.
    It is expected that in 2013 EPA will propose revisions to 
the Ozone National Ambient Air Quality Standards (NAAQS), 
which, by their estimates, could potentially cost $19 billion 
to $90 billion annually and would likely find 85 percent of 
U.S. counties designated in nonattainment. The cumulative 
impacts on jobs, U.S. competitiveness, power prices, fuel use, 
and electricity reliability of the new Ozone NAAQS as well as 
other EPA rules to be issued remain unknown.
    My question then is: Why should the underlying science and 
true economic impacts behind EPA's air regulations not be made 
available to the public? Why--if ``information is power''--is 
EPA so afraid of making public the underlying data that the 
Agency claims justifies the supposed benefits?
    For the last 3 weeks I have heard nothing but excuses from 
the EPA:
     Excuses for not complying with the Freedom of Information 
Act;
     Excuses as to why they won't share emails related to 
senior officials' work that Congress is entitled to;
     Excuses for why they need to exclude those affected by 
and hide the contents of settlement agreements from the public; 
and
     Excuses for not being able to share the underlying 
science for their air rules with the public.
    I look forward to further discussing these issues with the 
nominee today. My hope is that the nominee has come prepared to 
provide something more substantive than excuses.

    Senator Boxer. Thank you, Senator. We are going to try to 
keep to the time schedule, if we can. What we are going to do, 
I think we can get to a lot of colleagues, so I hope you will 
stay.
    We are going to hear from our two Senators who are visiting 
us to introduce Gina McCarthy. Then we are going to go to, in 
this order: Whitehouse, Barrasso, Sanders, Inhofe if he is 
here, Carper, Fischer, Wicker. We are going to try to get this 
done before the vote starts at 11, 11:10, 11:15.
    So which one of you would like to begin? Senator Warren.

          OPENING STATEMENT OF HON. ELIZABETH WARREN, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Warren. Thank you, Madam Chairman. It is an honor 
to be here with Senator Cowan to introduce the President's 
outstanding nominee for Administrator of the Environmental 
Protection Agency, Gina McCarthy. Gina has dedicated her 
professional life to the protection of our public health and to 
the stewardship of our environment. I know she will fill this 
post with great distinction.
    I am especially proud that Gina is from Massachusetts. She 
was born in Brighton. She holds degrees from the University of 
Massachusetts Boston and from Tufts University. And she began 
her career in Canton.
    After more than 25 years in public service at the State and 
local level, Gina's track record is well-known in 
Massachusetts. She served in numerous environmental posts in 
the administrations of no fewer than five Governors, from Mike 
Dukakis to Mitt Romney. Those of you who are familiar with 
Massachusetts politics will recognize this as a noteworthy 
achievement in and of itself.
    I could go into detail about the quality of Gina's work, 
her groundbreaking efforts to develop the first mercury and air 
toxics standards for power plants, her work on a science-based 
review of how climate change is putting human health at risk, 
or her careful management of fisheries, parks and forests. I 
could speak to the depth and breadth of her public service, 
that she understands what it takes for this agency to function 
effectively, because she has worked at so many levels of its 
operation.
    But what I find to be most compelling about her as a public 
health advocate and environmental steward is the approach she 
brings to her work. Gina is driven by a deep concern for the 
health and well-being of each of us, and her people-oriented 
approach has always informed her decisionmaking about how best 
to protect the air we breathe, the water we drink, and the 
outdoor spaces that we cherish.
    Gina's commitment to this cause is evident not only in the 
quality of her work but in the 12-hour days, the late nights 
the colleagues at the EPA have described as part of her regular 
routine. I believe that Gina's approach to her work is what has 
enabled her to work so effectively across party lines. It is a 
key part of what makes her a pragmatic policymaker and a tough 
but fair regulator. I know that Gina will be able to work 
constructively and openly with industry leaders, without 
compromising the EPA's commitment to public health and 
preserving our natural environment.
    The environmental policies and public health rules that we 
craft today will have a profound impact on the world we leave 
to our children and grandchildren. The EPA will continue to 
play a crucial role in assuring a safe and healthy world for 
future generations. I can think of no one better to lead that 
work than Gina. I am proud to bring you a talented, hard-
working daughter of Massachusetts here to serve her Country.
    Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Cowan, we are delighted to have you. Please 
proceed.

          OPENING STATEMENT OF HON. WILLIAM M. COWAN, 
          U.S. SENATOR FROM THE STATE OF MASSACHUSETTS

    Senator Cowan. Chair Boxer, Ranking Member Vitter and 
members of this Committee, I am honored to join Senator Warren 
to express my strong support for the nomination of Gina 
McCarthy.
    Gina has dedicated her life to public service. She has 
fought to protect our public health, conserve our natural 
resources, develop new policies and manage Federal programs and 
State agencies. Gina's success is a reflection of her ability 
to bring together diverse and opposing stakeholders and work 
with both sides to fairly resolve their differences and achieve 
meaningful environmental protections.
    Her success is also a reflection of her understanding that 
environmental protection and economic growth go hand in hand 
and can be mutually reinforcing. Gina started her career in 
1980 as the first health agent in Canton, Massachusetts. Early 
on, she established herself as someone who can and will work 
with all parties. She is also someone who will tell you when 
there is no need for Government intervention. While she was 
always ready to push for action when needed, she was also the 
first person to put her foot down when it was clear that no 
action was necessary.
    Since her time in Canton, Gina has more than 25 years of 
experience working on environmental issues at the State level, 
working for both Democratic and Republican administrations. As 
many people have said, the great thing about Gina McCarthy is 
that what you see is what you get.
    Over the last 4 years, she has brought the same pragmatism 
to her work for the Federal Government. She has been a leading 
advocate for balanced, common-sense strategies to protect 
public health and our environment. I believe Gina McCarthy has 
the background, the experience and judgment to be a terrific 
Administrator of the Environmental Protection Agency. I hope 
this Committee will give her nomination its full consideration. 
I look forward to supporting her on the floor.
    Thank you.
    Senator Boxer. Senators, thank you. You are free to go, 
because I know you have hectic schedules. With that, we are 
going to move to Senator Whitehouse, and then to Senator 
Barrasso.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. I am delighted to 
consider Assistant Administrator McCarthy's nomination to serve 
as the Administrator of the Environmental Protection Agency.
    Four years ago, when EPW assembled for Lisa Jackson's 
nomination hearing, I expressed my frustration that the EPA, 
during the Bush administration, had become a poster child of 
the opaque Federal agency pandering to special interests, 
rather than one that based its decisions on the best available 
science and on the public interest.
    As the Assistant Administrator of one of EPA's most active 
divisions, Air and Radiation, Ms. McCarthy has played an 
instrumental role in helping to turn the EPA around. During her 
exemplary career in public service, she has designed and 
implemented policies that have saved countless lives and 
billions of dollars in health care costs. Ms. McCarthy began 
her career as a health agent for the town of Canton, 
Massachusetts, in 1980 and has worked her way up ever since. 
During 33 years of public service, she has also been Deputy 
Secretary of Policy for the Massachusetts Office for 
Commonwealth Development and Commissioner for the Connecticut 
Department of Environmental Protection. She served both 
Democratic and Republican Governors, including Mitt Romney and 
Jodi Rell.
    One of her many accomplishments in New England is the 
Regional Greenhouse Gas Initiative, RGGI, the first of its kind 
market-based effort to reduce greenhouse gas emission in the 
Northeast and Mid-Atlantic. Currently RGGI has nine member 
States with a combined population of 41 million Americans. RGGI 
has been credited with boosting local economies by sparking 
further investment in energy efficiency programs and renewable 
energy development.
    She brings New England values of plain-spokenness, 
independence and practicality. And her local experience makes 
her well aware of how Federal policy affects local 
stakeholders.
    As Assistant Administrator, Ms. McCarthy crafted several 
key health standards, including the first-ever mercury standard 
for power plants. The Mercury and Air Toxics Standard set long-
overdue standards on mercury, arsenic, chromium, sulfur 
dioxide, nitrogen oxides and other dangerous air pollutants. 
MATS, as it is called, is projected to prevent up to 11,000 
premature deaths, 4,700 heart attacks, 130,000 asthma attacks, 
and to provide as much as $90 billion in health benefits each 
year. That is $3 to $9 in health benefits for every dollar 
spent to meet the standard, a huge economic win.
    I am from the Ocean State. I know that cleaning up 
smokestack emissions is one of the most important things to do 
to reduce toxic mercury compounds that build up in our fish and 
enter our food. Rhode Island and other States along the Eastern 
Seaboard are also downwind States, downwind of tall smokestacks 
spewing pollution. As of 2010, 284 tall smokestacks, stacks 
over 500 feet, were operating in the United States, needles 
injecting poison into the atmosphere and contributing 
significantly to pollution in my home State.
    The air pollution from these tall stacks went largely 
unchecked until Ms. McCarthy came along to clean them up. These 
same smokestacks have been unloading their soot pollution on 
Rhode Island for decades. Last December, EPA adopted a stricter 
limit on soot, or as it calls it, fine particulate matter. When 
we breathe it in, soot increases the risk of asthma attacks and 
lung cancer. The smallest particles pass into the bloodstream 
and cause heart disease, stroke and reproductive complications.
    Restrictions on particulate matter are expected to prevent 
as many as 35,000 premature deaths every year, 1.4 million 
asthma attacks, 2.7 million days of missed work or school and 
save between $2 billion and $6 billion in avoided health care 
costs. Another huge economic win, if you are not the polluter, 
of course. And yes, you do have to clean up your mess.
    The costs of air pollution are paid in premature deaths and 
reduced quality of life, higher medical bills, strained public 
health services and missed days of work and school. Asthma is 
the No. 1 health reason for missed school days and the fourth 
leading cause of missed adult work days. My downwind home State 
of Rhode Island has the sixth highest rate of asthma in the 
Country. More than 11 percent of the people in my State suffer 
from this chronic disease. In 2009, 1,750 Rhode Islanders were 
hospitalized for asthma, hospital stays that cost about $8 
million, not counting medication and missed days of work and 
school.
    So the return on investment, from EPA's air standards, 
would make a hedge fund proud. And I am proud to thank Ms. 
McCarthy for these successes, and to support her candidacy as 
Administrator of the Environmental Protection Administration. 
Thank you very much, Madam Chair.
    Senator Boxer. Thank you, Senator.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you, Madam Chairman.
    I am not sure whether the nominee before us today is 
personally aware of so many folks who have actually lost their 
jobs because of the EPA, and a role that I believe is taking 
now, which is failing our Country, people in places like 
Wyoming, Montana, Kentucky, Ohio and West Virginia.
    And let me just read you a story that ran in the front page 
of the Casper Star Tribune, Wyoming's statewide newspaper, 
dated January 28th of this year, 2013. It is entitled Coal's 
Decline Hits: Depressed Domestic Market Means Laid-Off 
Wyomingites. The article references Mike Cooley and his family. 
Here he is with his 2-year-old son and his wife. The article 
says that Mike has become one of several hundred mining family 
mine workers to lose their jobs in the past year in the region 
as a dispute over West Coast ports hobbles the industry's 
ability to reach booming markets in Asia, people who want to 
buy American products.
    But yet, your extreme emission rules that you have imposed 
on U.S. power stations are forcing coal companies to make up 
for lost domestic customers by exporting more to countries in 
Asia. Yet the EPA has written a letter to the Army Corps of 
Engineers, I would ask, Madam Chairman, to make a copy of this 
letter part of the record.
    Senator Boxer. Yes, it will be done.
    [The referenced letter was not received at time of print.]
    Senator Barrasso. Thank you very much, Madam Chairman. Your 
EPA has written the Army Corps of Engineers encouraging them to 
look at the greenhouse gas impacts of allowing coal to be 
shipped overseas through these West Coast ports.
    So not only do you block the use of coal in power plants 
domestically, you now are recommending that coal not be 
shipped, that an American product not be able to be shipped and 
sold overseas. This gentleman goes on, he says, I have never 
been laid off, I have always worked since I was a teenager. Now 
his family is relying on his wife's income as a grocery store 
cashier until he finds a job.
    That is not just Wyoming. The Bluefield Daily Telegraph, a 
West Virginia paper, ran a story about a veteran coal miner, 
their concerns about the Administration's war on coal. This 
miner, named Al Palmer, and Madam Chairman, I would like to 
make that story a part of the record as well.
    Senator Boxer. Yes, without objection.
    [The referenced information follows:]
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    Senator Barrasso. He says, ``Coal miners used to be heroes. 
But now many of my brothers and sisters in the coal industry 
fear for their families' livelihood.'' The article mentions 
Al's father, who worked as a coal miner, as did both of his 
grandfathers. Now his son works in the same mine with him. He 
stated in the article, ``Coal has powered this Nation for 
years. Please don't throw us away.''
    My questions are, are coal miners like Al and his son no 
longer heroes to the nominee and to the EPA? The EPA is making 
it impossible for coal miners like Mike Cooley in Wyoming and 
Al Palmer in West Virginia to feed their families. How many 
more times, if confirmed, will this EPA director pull the 
regulatory lever and allow another mining family to fall 
through the EPA's trap door to joblessness, to poverty and to 
poor health? These people are heroes, and they deserve better 
than what they are getting from the EPA.
    The nominee before this Committee is a senior EPA official, 
reporting to the Administrator and to some extent, she owes the 
American people an explanation and a vision today for what the 
EPA, under her, would look like. Will anything change? Anything 
from the course that we have been on for the last 4 years? The 
nominee today has testified at her confirmation hearing 4 years 
ago that she would ``speak plainly and truthfully about the 
lives being lost, the responsibilities we face, the challenges 
ahead, the options we have and the opportunities we can realize 
as we face the future together.''
    I haven't heard yet any plain statements from EPA and 
hopefully I will today from this nominee about the negative 
health impacts and lives lost from chronic unemployment caused 
by the EPA policies. Regulations and proposed rules on 
greenhouses gases, coal as, mercury emissions and industrial 
boilers have led to the closing of dozens of power plants in 
the U.S., costing our Country thousands of jobs. Folks who now 
have no job, no money, no prospect for a job in their 
communities, and they are experiencing serious health risks as 
a result of that.
    Studies show that children from unemployed parents suffer 
significant negative health effects. The National Center for 
Health Statistics said children in poor families, people out of 
work, are four times as likely to be in fair or poor health as 
children in families who are not poor. This is a serious health 
epidemic and it seems to go unnoticed by the EPA. So we need a 
nominee who has the power to not just listen to stakeholders, 
but to keep his or her promises, someone who is truly committed 
to the reform that we need to keep America working.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you. I ask unanimous consent to place 
into the record a document that shows that over the last 40 
years, our national GDP has risen by 207 percent since passage 
of the Clean Air Act, 40 times the cost of regulations. So I am 
going to put that into the record.
    [The referenced information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. And I am going to also state, I couldn't 
agree more with my friend on the problems of unemployment, 
absolutely. And I hope we can work together on that.
    OK, Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair. I rise in support 
of the candidacy of Gina McCarthy to be our next EPA 
Administrator.
    I want to thank Senator Barrasso, because he made it very 
clear what this whole discussion is about. I think we have 
heard from previous speakers about the qualifications of Gina 
McCarthy, but really this is not a debate about Gina McCarthy. 
Senator Barrasso made it very clear what the debate is about. 
And it is a debate about global warming and whether or not we 
are going to listen to the leading scientists of this Country 
who are telling us that global warming is the most serious 
planetary crisis that we and the global community face, and 
whether we are going to address that crisis in a serious 
manner.
    And in essence, what Senator Barrasso has just said is, no. 
He does not want the EPA to do that. He does not want the EPA 
to listen to science. What he wants is us to continue doing as 
little as possible as we see extreme weather disturbances, 
drought, floods and heat waves all over the world take place. 
So let me go on record as saying I want the EPA to be vigorous 
in protecting our children and future generations from the 
horrendous crisis that we face from global warming.
    According to the National Oceanographic and Atmospheric 
Administration, 2012 was the warmest year ever recorded for the 
continental United States, and over 24,000 new record highs 
were set in the U.S. alone. It was the hottest year in recorded 
history, in New York, Washington, DC, Louisville, Kentucky, 
even my home city of Burlington, Vermont and other cities 
across the Country.
    Last year's drought, affecting two-thirds of the United 
States, was the worst in half a century, contributing to 
extraordinary wildfires, burning more than 9 million acres of 
land, reported the National Interagency Fire Center. Heat waves 
and droughts are not limited to the U.S. Australia, for 
instance, just experienced a 4-month heat wave with severe 
wildfires, record-setting temperatures and torrential rains and 
flooding, causing $2.4 billion in damages, according to the New 
York Times.
    We also know that global warming is causing heat waves and 
drought. But it is also resulting in extreme weather 
disturbances of all kinds. NOAA's Climate Extreme Index, which 
tracks extreme temperatures, drought, precipitation and 
tropical storms, tells us that 2012 set yet another distressing 
record, the most extreme climate conditions recorded. Ronald 
Prinn, the Director of MIT's Center for Global Change Science, 
concluded, and this is an important point: ``What we have heard 
recently from scientists is that they tell us that their 
earlier projections regarding global warming were wrong, that 
in fact they underestimated the problem and that the conditions 
that they were worried about will likely be worse than what 
they had previously thought.'' And Ronald Prinn, the Director 
of MIT's Center for Global Change Science, said, ``There is 
significantly more risk than we previously estimated, which 
increases the urgency for significant policy action.''
    Let me just conclude, and I am glad that my colleague 
Senator Inhofe is here, because Jim Inhofe and I are good 
friends, although we have rather strong disagreements on the 
issue of global warming. What Senator Inhofe has written and 
talked about is his belief that global warming is one of the 
major hoaxes ever perpetrated on the American people, said it 
is a whole push by people like Al Gore, the United Nations and 
the Hollywood elite. I think that is a fair quote from Senator 
Inhofe, is that roughly right, Senator Inhofe?
    Senator Inhofe. Yes. I would add to that list moveon.org, 
George Soros, Michael Moore and a few others.
    [Laughter.]
    Senator Sanders. All right, there we go.
    So that is the issue. That is exactly what the issue is. Do 
we agree with Senator Inhofe that global warming is a hoax and 
that we do not want the Federal Government, the EPA, the 
Department of Energy to address that issue, because it is a 
``hoax'' according to Senator Inhofe and others? Or do we 
believe and agree with the overwhelming majority of scientists 
who tell us that global warming is the most serious planetary 
crisis that we face and that we must act boldly and 
aggressively to protect the future of this planet? That is what 
the issue is, and that is why I am supporting Gina McCarthy.
    Senator Boxer. Thank you very much.
    Poor Gina.
    [Laughter.]
    Senator Boxer. You are sort of caught in this situation. 
Anyway, Senator Inhofe, you are going to do this, and the vote 
has started. As soon as Senator Inhofe has finished, in his 5 
minutes, we are going to go vote. We are going to come back 
between 11:30 and a quarter of.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you very much, Madam Chairman, for 
giving me this opportunity. I think people realize we have two 
meetings going on at the same time.
    I would say this to you, Gina, you and I have had a chance 
to visit. I appreciate it very much, and I commented to you, 
and I have said publicly several times, if you are confirmed, I 
want to develop the same relationship that I had with Lisa 
Jackson. While we disagreed with policy things, we were able to 
get some things done.
    There are some areas of your previous position where I 
disagree. I am concerned about the direction of the EPA, and 
particularly the air office, some of the things that have 
happened. Americans want energy independence. We have the 
opportunity to have that, and I have said this so many times, 
that we now know that we have the resources to be totally 
independent. But we have to develop resources. Some of those 
are fossil fuels.
    The President's campaign against the fossil fuels has been 
a Governmentwide effort. But the regulations coming out of your 
agency have had the most damaging effects. In just the last few 
months, you put out the Utility MACT. I remember I had a CRA on 
the Utility MACT, came very close to getting it through. It 
would cost about $100 billion and 1.65 million jobs. Boiler 
MACT, which would have cost $63 billion, 800,000 jobs, and the 
PM 2.5, the Soot Rule, which would put dozens of counties out 
of attainment, in my State of Oklahoma, probably 15 counties 
out of 77.
    But the President has saved many of the worst regulations 
for his second term. And the simple fear if these regulations 
become final is having a sustained chilling effect on achieving 
the goal of domestic energy independence. One of those is the 
ozone, the NAAQS, that is probably being developed as we speak. 
This rule could shut down oil and gas activities across the 
Country. Additionally, because of the NSPS for electric 
generating units you have proposed last year, utilities cannot 
build new coal-fired power plants. That is in effect today.
    So coal, the source that you said in this room would remain 
vital for a long period of time, is now on the path to become 
obsolete. I am also concerned about the way the EPA has 
maintained its relationships with the States. Cooperative 
federalism is a key component to the Clean Air Act, but your 
agency has often acted secretly with environmental groups to 
impose damaging regulations. A lot of this comes through 
lawsuits that are filed by them and then consent decrees. We 
will have a chance to talk about that in the question and 
answer.
    So I look forward to this. I hope it does work out with our 
timing and I look forward to working with you.
    Senator Boxer. Senator, thank you so much. I am glad you 
were able to come back.
    We are going to recess now and come back between 11:30 and 
a quarter of. So could you just take a break and come back at 
11:30? Senator Baucus wanted to speak at that time. We are 
going to try to get back as fast as we can. We recess until the 
call of the Chair.
    [Recess.]
    Senator Boxer. We are back, thank you so much, Hon. Gina 
McCarthy, for waiting patiently. We are going to move forward, 
and I am going to read the list. If there is any disagreement 
with this list, please let me know. We will go back and forth. 
Carper, Fischer, Merkley, Wicker, Cardin, Sessions, Udall. All 
right. Yes.
    Senator Whitehouse. Madam Chair, I'm not on the list.
    Senator Boxer. Didn't you speak already?
    Senator Whitehouse. Oh, this is----
    Senator Boxer. We are still opening.
    Senator Whitehouse. Then I did.
    [Laughter.]
    Senator Boxer. As a matter of fact, I personally remember 
it well, and it was good, from my standpoint.
    [Laughter.]
    Senator Boxer. All right, so we're moving to Senator 
Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair.
    Welcome, Gina. It is very nice to see you.
    I just want to start off, to my colleagues, my last job 
before I came here to work with all of you, as some of you 
know, I got to be Governor of my State for 8 years. The 
tradition in Delaware, whether you are a Democrat or Republican 
Governor, is you get elected and you have the opportunity to 
govern with the team that you choose. I think every year, 
anyone we wanted to nominate or ask to be a cabinet secretary 
or division director during those 8 years, and we had a 
Republican house and a Democrat senate for all 8 years.
    But to a person, they were all confirmed and went on to 
serve. I said to the legislature, let me have the team that I 
think will help me and the administration serve our State well. 
And God bless them, they did. They did. And I said, hold us 
accountable for our results.
    I worry about something, I call it executive branch Swiss 
cheese. I don't care whether you have a Republican President, 
if it is George W. Bush, or if we have a Democratic President. 
This is not a good situation for our Country.
    I chair the Committee on Homeland Security now. We had a 
hearing a couple of days ago for OMB Director. And we have an 
acting OMB Director. As you may know, there are two Deputy OMB 
Directors, one for management, one for budget. They are vacant. 
We have a position for OIRA, which handles regulation, and we 
have an acting person in place. Part of that is the 
responsibility of the Administration. This is a shared 
responsibility here. They have an obligation to give us good 
names. They have to vet them, give us good names. We have an 
obligation to, in a prompt, forthright way, consider those 
names.
    I tell you, I was once asked by Bill Clinton to serve on 
the Amtrak board of directors. The process, just going through 
there, I was a sitting Governor, the process you have to go 
through to be vetted is awful. It was horrendous. I hated it. 
And what we ask people to do, very good people, whether it is 
George Bush as President or Barack Obama, we ask very good 
people to go through what is a very unpleasant experience, a 
lengthy process. Sometimes they have to put their life on hold. 
And then to risk having their integrity impugned publicly, just 
because they want to serve their Country.
    This is a good woman. This is a good woman. Is she perfect? 
No. Do we disagree on something? Sure, we do. But I mean, how 
many people come before us nominated by a Democratic President 
that actually served not one, not two, not three, but four 
Republican Governors? When you are a Governor, you are a 
practical person, you are a pragmatic person. The four that she 
served are that.
    For myself, I want us to have people in this position that 
are smart, that are pragmatic, that use some common sense to 
try to do what is right. Here is the situation we face. 
Virtually every regulation that the Bush administration sought 
to put in place dealing with air, they were all basically 
remanded or turned back over to the courts, every one were 
remanded or turned back over to the agency. They said, you got 
it wrong.
    The reason why there is all this stuff in her lap and in 
EPA's lap is because of that. We have to get it right.
    The last thing I will say is this. We all have things that 
kind of stick with us and things that we have heard that really 
stick with us over time. I just want to share this one quick 
story, particularly with my Republican colleagues. And here it 
is. I think it was my first term in the Senate. I was, along 
with George Bush, trying to lead the Clean Air Nuclear Safety 
Subcommittee. We had a meeting with a bunch of utility CEOs. 
There was one CEO there, there was about 8 or 10 of them, there 
was one CEO from one of the southern utilities, maybe Alabama, 
but he said to us, we had been talking for an hour or so, on 
clean air emissions, clean air standards.
    Here is what he finally said to us. He said, look, tell us 
what the rule are going to be, give us a reasonable amount of 
time and give us some flexibility and get out of the way. That 
is really what he said. He said, we need predictability and we 
need certainty. And we need it especially with respect to this 
position. We need somebody who will help us develop what the 
rules are going to be, give us some flexibility, a reasonable 
amount of time to comply, and then let's get out of the way.
    I think Gina McCarthy understands that. And I think she 
will be a very good partner with us. She has been a good 
partner with us. It wasn't just by chance that we unanimously 
confirmed her here and in the U.S. Senate when she took over 
this Air position 4 years ago.
    I think she will do a good job for us. She will be 
responsive and she will use pragmatism and some common sense. I 
would just plead with my colleagues, let's get this done. Let's 
get this done, and I don't think you will regret it. Thank you. 
And I would ask that the rest of my statement be made part of 
the record.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Thank you, Chairman Boxer, for having this hearing today.
    I would like to warmly welcome Gina McCarthy back to our 
committee. I am happy the President has nominated her for EPA 
Administrator and she has agreed to continue her service at the 
EPA in this new role.
    I believe Gina has a strong background for this position--
not only from her long history of work in the States, but also 
as head of the EPA air division during a challenging time.
    Four years ago--after being unanimously approved as 
Assistant Administrator for Air by this committee and by the 
Senate--she faced a daunting task waiting for her at the EPA.
    Every major clean air regulation written by the Bush 
administration had been remanded or vacated by the courts.
    As a result, Gina was tasked with implementing a laundry 
list of court-ordered regulations--all during the worst 
economic crisis since the Great Depression.
    Many felt concerned that promulgating new regulations could 
short circuit the economic recovery.
    But at the end of the day, she helped put in place 
safeguards for cleaner air that protected the health of 
Americans without undercutting efforts to grow our economy. 
That's in no small part due to her leadership.
    She has worked for not one, not two, but five, that's right 
five, Republican Governors. Most recently she has worked for 
Mitt Romney in Massachusetts and Jodi Rell in Connecticut.
    As a result, she's accustomed to working in a consensus-
driven way with members of both parties--a critical skill set 
that will serve her well in the top job at the EPA.
    She and I have not always seen eye-to-eye on some issues. 
But she has always been honest with me and my staff--and tried 
to find common ground if possible. Again, an important skill to 
have as Administrator.
    Some folks believe that you have to choose between 
protecting the environment and growing our economy, but Gina 
has helped prove that notion wrong.
    We know choosing between a strong economy and a safe 
environment is a false choice, and Gina is well-suited to help 
guide the EPA through a significant period.
    I look forward to continuing to work with her on issues 
facing our Country and my home State of Delaware, like curbing 
dangerous cross-state air pollution and addressing climate 
change.
    Lisa Jackson leaves big shoes to fill as EPA Administrator, 
but I'm confident Gina will fill them.
    And speaking of shoes to fill, I have long been concerned 
about a problem that has plagued the executive branch through 
both Democratic and Republican Administrations--numerous and 
longstanding vacancies in senior positions throughout the 
Federal Government.
    This problem has become so prevalent that I've started 
referring to it as executive branch ``Swiss cheese.''
    At any given moment we are lacking critical leadership in 
numerous positions in just about every agency, undermining the 
effectiveness of our Government.
    While Congress and the Administration have taken steps to 
address this problem, the fact remains that we still have more 
work to do to ensure that we have talented people in place to 
make critical decisions.
    That's one of the reasons why today's confirmation hearing 
is so important, and why I'm pleased that President Obama has 
put forward a nominee who I believe has the skills necessary to 
step in and be effective from day one.
    And that's why I am calling on my colleagues to join me in 
supporting Gina's nomination.

    Senator Boxer. Without objection. And I really thank you 
for that. It was so well said.
    Now, we have a slightly different list from the 
Republicans, I am going to go through it again just to make 
sure everybody is treated fairly. Because that is extremely 
important.
    So we are going to move to Senator Fischer, then Merkley, 
Wicker, Cardin, Sessions, Udall. Everybody happy? All right. 
Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Chairman Boxer and Ranking 
Member Vitter. I am happy to be here today.
    Thank you, Ms. McCarthy, for being here and for your 
willingness to serve the public. I truly appreciate that. And I 
do appreciate that I have this opportunity to share with you 
some of the concerns of my constituents.
    As you and I spoke, in Nebraska, agriculture is our No. 1 
industry. We are a people who are proud to feed the world. Our 
success is the direct result of careful stewardship of our 
natural resources, which we depend upon for our livelihood. We 
hold dear these resources, our land and our water. These are 
both our heritage and our legacy to future generations.
    We have made tremendous gains in production agriculture, 
producing more while using less land, less water, less energy, 
less fertilizer and less pesticide. These achievements and 
these environmental improvements are made because of farmers' 
and ranchers' application of new technology and conservation 
practices. They are not the result of a permit or a mandate or 
a paperwork requirement from a Federal bureaucracy. They are 
the result of cooperation between producers and local 
university extension educators and conservation agents.
    These are folks who farmers trust to help them implement 
science-based solutions that improve our efficiency and reduce 
our environmental impact. We believe that local natural 
resources management is more successful than EPA's top-down 
command and control Federal approach. We believe that local 
natural resource management is more successful than EPA's 
continual approach in that area. And we find that EPA's 
proposed expansion of the Clean Water Act authority is 
alarming.
    Also of concern to us is the increasing cost of compliance 
with environmental regulations for Nebraska's public power 
utilities, which you and I spoke about. Because that does 
increase the monthly electricity bills for all Nebraskans, and 
that is a burden. Our State is poised to work with EPA to make 
reasonable and cost-effective changes that result in meaningful 
environmental improvements. What we cannot tolerate, however, 
is failure to consider economic impacts, mandates of controls 
that are not commercially available, and regulatory 
uncertainty.
    Regulations must be made on sound, publicly available 
science, subject to a thorough cost-benefit analysis, and 
promulgated through a transparent public notice and comment 
process. Madam Chair, I would ask that my full statement be 
entered into the record. Ms. McCarthy, again, I appreciate your 
being here. I look forward to questioning you about many of 
these concerns. Thank you.
    [The prepared statement of Senator Fischer follows:]

                    Statement of Hon. Deb Fischer, 
                U.S. Senator from the State of Nebraska

    Thank you, Chairman Boxer and Ranking Member Vitter, for 
holding today's confirmation hearing. Thank you, Ms. McCarthy, 
for being here and for your willingness to serve the public. I 
appreciate the opportunity to share with you the concerns of my 
constituents.
    During my Senate campaign, I traveled 73,000 miles, 
crisscrossing Nebraska. From every corner of my State, from 
families, from business owners, and especially from farmers and 
ranchers, I was overwhelmed with appeals to address the 
overregulation inhibiting economic growth. As a Senator, I 
continue to hear more of the same. These pleas for relief come 
from families facing higher electricity bills, businesses and 
utilities confronting the compliance costs of new rules, and 
producers who are frustrated with a bureaucracy that just 
simply doesn't understand the nature of their business.
    In Nebraska, agriculture is our No. 1 industry. We are a 
people who are proud to feed the world. Our success is the 
direct result of careful stewardship of our natural resources, 
which we depend upon for our livelihoods. We have made 
tremendous gains in production agriculture--producing more 
while using less land, less water, less energy, less 
fertilizer, and less pesticide.
    These achievements and environmental improvements are made 
because of farmers' and ranchers' application of new technology 
and conservation practices. They are not the result of a permit 
or a mandate or a paperwork requirement from a Federal 
bureaucracy. They are a result of cooperation between producers 
and local extension educators and conservation agents. These 
are folks who farmers trust to help implement science-based 
solutions that improve our efficiency and reduce our 
environmental impact.
    Unfortunately, it seems EPA has preferred to pursue a top-
down, command-and-control, Federal approach to addressing 
environmental and conservation issues. Centralized management 
and mandates are all too often arbitrary, ineffectual, or even 
counterproductive, lacking the insight of local stakeholders. I 
strongly believe that environmental policy and resource 
management should account for site- and situation-specific 
factors that acknowledge that those closest to a resource are 
generally best situated to manage it.
    I am particularly concerned about EPA's proposed guidance 
to clarify regulatory jurisdiction over U.S. waters and 
wetlands, which would broaden the number and kinds of waters 
subject to regulation. Expanding the Clean Water Act's scope 
imposes costs on States and localities as their own actions--
such as transportation improvements, flood control projects, 
and drainage ditch maintenance--become subject to new 
requirements.
    I am also concerned about the increasing cost of compliance 
with environmental regulations for Nebraska's public power 
utilities. Advanced pollution-control equipment can account for 
up to 25 percent of the cost to build a new power plant. Last 
year, Nebraska utilities spent tens of millions of dollars 
complying with power-plant environmental regulations, and these 
costs are expected to continue to rise, increasing electricity 
prices and the monthly bills of all Nebraskans.
    Nebraska utilities work hard to provide low-cost 
electricity that is clean and reliable. We rely on coal-fired 
generators because they are the least expensive way to generate 
electricity. The barrage of new regulations under the Clean Air 
Act will likely cause Nebraska utilities to close some of our 
older power plants because the cost to bring them up to the new 
emissions standards would be more than the plant is worth.
    Our State is poised to work with EPA to make reasonable and 
cost-effective changes that result in meaningful environmental 
improvements. What we cannot tolerate, however, is lack of 
transparency, failure to consider economic impacts, mandates of 
controls that are not commercially available, and regulatory 
uncertainty.
    Regulations must be based on sound science--science that is 
publicly available and open to examination. EPA must also 
comply with the law, including the requirement that the agency 
use sound methodology to conduct continuing evaluations of 
potential loss and shifts in employment that may result from 
the implementation and enforcement of its rules.
    Finally, we must ensure that rulemaking is done through a 
transparent public notice and comment process, not through the 
increasingly common and underhanded litigation practice known 
as ``sue and settle.'' These lawsuits often result in consent 
decrees that give the environmental groups negotiating power; 
meanwhile private property owners and others in the regulated 
community are not given any power to participate in the 
process.
    Ms. McCarthy, thank you again for being here today. I look 
forward to questioning you about how we can work together to 
address these important objectives.

    Senator Boxer. Senator, thank you very much.
    Senator Merkley, followed by Senator Wicker.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you very much, Madam Chair.
    And thank you so much for being willing to put yourself 
forward in this public service capacity. I appreciate it.
    I wanted to start by recognizing that this conversation is 
much broader than your background. I think many of us are 
extraordinarily impressed with the skills you have developed 
and the battles you have undertaken. But obviously, there is a 
very broad conversation about how we make the environment and 
the economy work together for a better America and better 
quality of life. And quite frankly, more and better jobs. In 
that context, this will be a framework that will continue 
throughout one's service in this type of role.
    I share the opinion of many in this room that one of the 
most important jobs in our Country is to tackle the pressing 
environmental crisis of our time, climate change. The 12 
hottest years on this planet have come in the last 15 years. 
The statistics of that happening randomly are, quite frankly, 
minuscule beyond calculation. I look at it through the lens of 
my farming and my timber community. I just came from Klamath 
County in the south part of Oregon. It is a massive wildlife 
refuge and farming community, depending upon irrigation. And 
they had their worst ever year for water in 2010. They had 
their second worst year in 2011 and there was a huge battle in 
the State. This year they are 50 percent below. And that is 
just one example of the impact of the changing climate.
    In various parts of Oregon we have large pine beetle 
infestations because the winters are warmer and they are not 
killing off the pine beetles as much as they used to. It has a 
big impact on timber. And then of course, the drier years are 
producing a lot more fires. We had a fire the size of Rhode 
Island in Oregon last year. We had more acres burned in Oregon 
last year than we have had in 100 years. We lost range land, we 
lost timber land. And the drier conditions result, and the 
firefighting results in the Forest Service having a very 
difficult time having the funds to plan timber sales, which 
then complicates the problem, because we have less healthy 
forests and thinning in our Federal forests, which makes them 
more susceptible to fires.
    So meanwhile, we looked at farming and timber, let's turn 
to the fishing side of this. We have a big oyster industry on 
the coast of Oregon. And the Whiskey Creek Hatchery produces 
oyster seed for other oyster farmers. It has been having a lot 
of trouble because of a slight change in acidification of the 
ocean. Just a small change. And if you have a small change 
affecting shell formation in very young oyster seed, you can 
think about how different food chains will be impacted. That is 
not a pretty picture.
    So this is just the State of Oregon. If we look more 
broadly, we see so much more going on. Some of my colleagues 
have spoken to concern about the natural resource industry and 
the extraction of coal. Well, quite frankly, I am concerned 
about my fishing community. I am concerned about my timber 
community, I am concerned about my farming community, all of 
which are impacted by the strategies we employ. America should 
be in the leadership in taking on this challenge.
    So there are many of these issues that I will return to, 
wrestling with specific issues for Oregon when we are in the 
questioning. I do want to mention how important the Superfund 
clean up is, particularly Portland Harbor. I have had a chance 
already to talk with you about that. I continue to look forward 
to working with you after your confirmation to pursue policies 
that get us out of the planning stage and into the 
implementation stage.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair, and thank you, Ms. 
McCarthy, for making yourself available to the Committee. And 
thank you for meeting with me early on in the process.
    I have often said that the position of EPA Administrator is 
one of the most important and consequential of any 
Administration.
    Despite a weak economy and high unemployment, the 
Administration continues to use EPA to push regulations that I 
fear will put more Americans out of work and at the same time 
achieve only minimal results. I am afraid these harmful 
regulations will continue.
    Because of the significance of these decisions, 
transparency is critical as taxpayers are asked to shoulder the 
burden of excessive regulations. In other words, you and I may 
disagree on policy. But let's not hide information. Show us the 
data on the science.
    Ms. McCarthy, as you and I discussed in our first meeting, 
I have concerns regarding the National Ambient Air Quality 
Standards for Ozone. DeSoto County, Mississippi, has been 
dealing with this issue first-hand as have many counties across 
the U.S. DeSoto County is a suburban county, it is very clean. 
It has the misfortune of being just south of Memphis, Tennessee 
and Interstate 40. I was disappointed in the 2012 decision to 
designate DeSoto County as a major contributor to poor air 
quality in the region. I just do not believe that is fair.
    As EPA moves forward with regulations, many are concerned 
that more stringent rules could hinder economic growth in non-
compliant counties, complicating job-creating efforts as new 
construction projects, energy production and manufacturing 
facilities struggle to comply with Federal regulations.
    I was interested to see the Chair's chart on smog alerts in 
her home State of California. In 1976, it was very, very high. 
This year, zero. No smog alerts. It seems to me that this 
should be an occasion to celebrate the success of current 
policies, rather than to advocate more restrictive policies. 
Hard to get below zero, 100 percent success, on smog alerts.
    As is the case with many EPA regulations, I believe it is 
important for the agency to afford particular deference to the 
knowledge, authority and expertise of State governments. Strong 
consideration should also be given to regional variability and 
differences between States and within States where regulations 
are developed. A one size fits all approach is not always the 
best strategy, particularly when jobs are threatened for no 
significant environmental gain.
    Now, with regard to coal. I agree with Senator Barrasso, 
excessive rules from EPA affecting coal-fired power plants pose 
a serious threat to America's economic competitiveness. Because 
Mississippi has diverse fuels and power generation technology 
options, including coal, our State can offer electric rates 
below national average and attract more job-creating 
investment. The President said in 2008, we can develop clean 
coal technology. EPA needs to help make good on that promise.
    EPA's regulatory assault on coal does not diminish the 
influence of foreign energy producers or bring down prices for 
families and businesses.
    Now, with regard to water, our next EPA Administrator will 
oversee development and implementation of more than just air 
regulations. If confirmed, you would be the primary 
decisionmaker on how to regulate activities related to chemical 
manufacturing, farming activities, forest products and private 
property rights, among others. I am interested to hear how you 
plan to approach water issues and water regulations that could 
have a severe impact on job creation. This would include 
burdensome permits for forest roads, development of numeric 
nutrient standards for the Gulf of Mexico, how you would 
exercise EPA's veto authority under Section 404 of the Clean 
Water Act, and if you believe the preemptive veto of any 
project before it goes through the regular NEPA process is 
appropriate.
    These issues are critical for Mississippi and for the 
entire Country, the well-being of all Americans and their 
ability to earn a living.
    So I look forward to the hearing regarding these important 
issues. Securing a productive and reliable energy plan should 
be a top priority. And yet the focus should be on efficient and 
safe ways to utilize America's abundant resources, not 
regulatory decisions that hurt jobs and block affordable 
energy. Thank you very much.
    Senator Boxer. Thank you, Senator.
    So I wanted to say, since we have so many members here, 
that Senator Vitter and I were talking to Senator Wicker, we 
came up with a new early bird rule. So the way it will work is, 
whoever is here at the time the gavel goes down, in their 
chairs, that will be the order by seniority. But after the 
gavel goes down, then the early bird rule. Is that OK with 
everybody? Yes? OK.
    So we're going to go to Cardin, Sessions, Udall, Boozman. 
Go ahead, Senator.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair. I noticed that that 
rule was implemented only after I got a chance to speak.
    [Laughter.]
    Senator Cardin. I just would note that for the record, but 
I still love you.
    Senator Boxer. Here is my answer to that. Anyone who really 
cares about the future is a hero. Because you changed the rules 
for the future, we all thank you for that.
    OK, let's move to Senator Cardin.
    Senator Cardin. Madam Chair, I am honored to be the first 
person recognized under the new rules.
    [Laughter.]
    Senator Cardin. Let me welcome Ms. McCarthy to our 
Committee and thank you very much for your public service. I 
thank your family. You are stepping forward in an extremely 
important role.
    As you can see by the members' interest in this hearing, 
that has a lot of members' interest. That is courageous of you. 
We thank you. This is an extremely important public service and 
we very much appreciate your willingness to serve.
    EPA has a proud history, since 1970, bipartisan support. An 
agency that we labeled Environmental Protection Agency because 
we want to protect the environment for future generations, that 
is the responsibility. The Clean Air Act, the Clean Water Act 
were bipartisan actions taken by Congress because we recognized 
that we have a responsibility to American families to protect 
their health and protect the environment for future 
generations.
    As Senator Boxer already pointed out, the cost-benefit 
ratios of these laws are well-documented. Multiple factors of 
40 to one in the costs associated with implementing these 
statutes and the benefits that we receive from clean water and 
clean air.
    In Maryland, we are very proud of what we have been able to 
do as a State. We enacted, in 2006, the Maryland Healthy Air 
Act. Those who claimed it would cost jobs, it did just the 
reverse. It created jobs in our State. And it provided a 
healthier environment for the people in Maryland.
    The problem is, like Delaware, we are downwind. If we don't 
get help from the Federal Government in enforcing clean air 
standards, even though we can do the best job possible in our 
State, our people will still be vulnerable because of inaction 
in other States. That is why we are concerned about proper 
enforcement of national laws. It helps us, even though our 
State has done the right thing.
    We have families with children with asthma. We know what 
happens when the Clean Air standards are not as strict as they 
need to be. We have families with people who have heart disease 
that are affected by the quality of our air. We have water-
borne disease problems in our State because of the quality of 
the water.
    I think the colleagues on this Committee have heard me talk 
frequently about the Chesapeake Bay, and we had a chance to 
talk about the Chesapeake Bay. The Chesapeake Bay is a multi-
jurisdictional body of water, and all of the surrounding 
jurisdictions have come together in an effort to recognize the 
importance of the Chesapeake Bay as a way of life for us in our 
community, but also its national significance. We have to work 
together.
    The Federal Government is an important partner. And we have 
made a lot of progress. But let me make it clear. The Baltimore 
Inner Harbor today is unfit for human contact about 73 percent 
of the time. We still have a lot more we need to do. So we need 
your help. And yes, we have established programs to deal with 
development and agriculture and storm runoff.
    But there is also the issue of climate change that affects 
the Chesapeake Bay and affects the people of my State. Smith 
Islanders who are trying to hold on to that last bit of land 
know that every increase in sea level affects their survival. 
The sea grasses in the Chesapeake Bay are not as strong as they 
need to be. Why? Because of water temperature and rising water 
temperature. That affects our watermen and their livelihood. It 
affects the diversity within the Bay. It affects the health of 
the Chesapeake Bay.
    So yes, we are concerned about climate change. We are a 
coastal State. Every State in America should be concerned about 
it. Our military installations are vulnerable. As Senator 
Carper mentioned, the national security interest. There is a 
national security interest to make sure that we deal 
responsibly with global climate change. The best thing is not 
adaptation, the best thing is to slow down and do what we can 
to prevent unnecessary carbon emissions.
    EPA needs to be guided by the law and good science. Quite 
frankly, looking at your record, you have done both. I applaud 
you for that, because we need an EPA Administrator that will 
follow the law, use best science, work with us, and protect the 
public as you should.
    I thank you for stepping forward and I am proud to support 
your nomination.
    Senator Boxer. Thank you, Senator.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Good morning, and thank you.
    Ms. McCarthy, it was a real pleasure for me to have a good 
conversation with you late yesterday, last night. I value 
Senator Carper's opinion and look forward to evaluating your 
nomination.
    If confirmed, you will be taking control of a very 
important Federal agency. I don't think there is any agency in 
Government today that has more potential and actual reach down 
to the average American, touching their lives in ways never 
contemplated when Congress passed some of the laws we passed 
over the years.
    I have heard from some that you will be a distinct change 
from your predecessor and that you are pragmatic and data-
driven. I hope that is true. It is important that we move in 
that direction. But I am mindful, you were the principal 
architect of Boiler MACT, Utility MACT, the Greenhouse Gas 
Rules, the Ozone and PM standards and the Cross State Air Rule, 
which was recently struck down by the D.C. Court. So if you 
think about it, under statutes passed long before global 
warming was contemplated, now CO<INF>2</INF> is being defined 
as a pollutant, and EPA is able to reach into someone's 
backyard where they are barbecuing, their lawnmower, their 
house or their automobile and so forth. It is a massive reach 
and just a pure sense of Federal power to areas never before 
contemplated, and never expressly legislative by the U.S. 
Congress.
    So I worry about that, and the American people worry about 
that. We are hearing a lot of concerns from my constituents.
    A most recent study by the National Association of 
Manufacturers found that just seven of the new EPA rules would 
require total capital expenditures of about $400 billion to 
$880 billion. That is very significant. Americans expect the 
environment to be protected. But they worry about our 
competitiveness in the world marketplace. And certainly after 
trillions of new spending by this Administration and hundreds 
of new regulations that have been asserted as creating jobs, 
the United States has 3 million fewer jobs today than we had in 
2008. We are not creating jobs. Jobs are leaving the work force 
every month. And last week's report showed 88,000 jobs being 
created, 486,000 Americans leaving the work force. So it is not 
a healthy thing, in my opinion.
    I want to tell you a little about the Henry Brick Company 
in Dallas County, Selma, Alabama, one of our counties with the 
highest unemployment rate in the State. They were formed in 
1945. I think we have a picture of the family there. They made 
about 35 million bricks a year. By the 1970s they were making 
75 million with 100 employees. By the 2000s they were up to 115 
million bricks. But sadly, the economic downturn hurt them. It 
hurt a lot of other companies, particularly brick companies. 
They fought hard to stay open, they hope to stay open. They 
have just 60 workers today.
    So in 2005, after EPA passed a new rule called the Brick 
MACT, Henry Brick Company spent $1.5 million to install 
scrubbers to clean their emissions. Now after having entered 
that settlement, entering into a new settlement that you've 
entered into, with an environmental group, EPA is proposing an 
even more stringent rule that would require Henry Brick to 
install more equipment, costing as much as $4 million to $8 
million. Now, their gross revenue last year was $6 million. You 
see the impact of that on this small company?
    So this is a tremendous strain. It places jobs at risk. 
This is the kind of real impact that is occurring in our 
Country today. I just hope that if you are selected for this 
position and confirmed, and it looks like you will be, then I 
think you need to consider this and some other similar 
situations as we go forward.
    Senator Carper [presiding]. I think, Senator Udall, you are 
next on the list.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you, Mr. Chair. It is good to see you 
here and have you presiding.
    Let me just echo what everybody else has said, Ms. 
McCarthy. I think that we really appreciate your putting your 
name forward. We appreciate you for the work you have done at 
the Air Quality Bureau. I really wanted to highlight some of 
that work, because I know what you are going to be doing as EPA 
Administrator is trying to figure out the right balance between 
environmental protection and our economic needs. That is what 
you struggle with every day when you do the work.
    As you are aware, we had a very serious air quality issue 
in New Mexico. It was an issue revolving around the Regional 
Haze Rule. In the time period of 2011, EPA proposed a rule for 
the San Juan Generating Station, this is one of our biggest 
power generators in New Mexico, to install best available 
control technology to reduce pollution. It called for the 
owners of that generating station to install selective 
catalytic reduction technology on each of four units. And as 
you know what occurred could have just deteriorated into 
lawsuits and gridlock, and there were accusations back and 
forth about how much it was going to cost, and we couldn't go 
forward with this.
    But the thing that I was impressed with is the EPA and 
under your guidance and with the regional administrator, they 
said, let's hear proposals about how to solve this. Let's not 
get into a long protracted lawsuit and not get anywhere. So 
what ended up happening as a result of that, the Governor's 
environmental agency, and by the way, we are talking about a 
Republican Governor, and the Public Service Company of New 
Mexico, who owns this generating station and your regional 
administrator all got together. And they started talking, and 
there was a proposal put out by the environment department. 
What ended up happening is a, what I would call a common sense 
solution, a win-win solution in this circumstance. Two of the 
units of the four were retired and are going to be replaced by 
natural gas-fired units, which that helps in terms of pollution 
and is a win-win. And the actual technology on the other two 
units I think is being updated. And the company feels they can 
win with it. So that is a win-win.
    So all of the parties here, the citizens of New Mexico, 
public service company that owned the generating station, the 
Governor of New Mexico, all of us supported that coming 
together. Really what I think you bring to this position is 
that kind of common sense solution of problems.
    So I support this nomination and I don't want to go on any 
longer, because I know we are trying to get through this. I 
will put more detailed arguments and backup in the record as to 
what I have done here and leave some additional time for others 
to speak. I think this is a very good example of the kind of 
work that you have done, and I look forward to you doing the 
same kind of work as the head of the Environmental Protection 
Agency.
    Thank you very much.
    Senator Carper. Thank you, Senator.
    Senator Boozman is next, then Senator Gillibrand. Senator 
Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Senator Carper. And thank you, 
Senators Boxer and Vitter for holding this important hearing.
    We just appreciate you, Ms. McCarthy, for your willingness 
to serve. These are very difficult positions. I also appreciate 
your coming by and having a good visit.
    We all value clean water, clean air and conservation. In 
short, we all value a safe and clean environment for the 
benefit of all Americans. No single agency or individual is 
responsible for bringing about these important goals. These are 
certainly things that the American people from all walks of 
life care about and cherish and work to achieve.
    I would like to talk a little bit also about the 
transparency issue and the accountability. Every Federal agency 
should be committed to transparency and accountability. This 
includes transparency and accountability to Congress and the 
American people. Certainly we must hold every Federal agency, 
including the EPA, to accountability in this regard. 
Transparency and accountability at the EPA should mean several 
things. First, it means the agency should respond fully, 
truthfully and promptly to Freedom of Information Act requests 
and congressional inquiries. It means that the agency's 
business should not be conducted on secret email accounts and 
that shield officials from accountability.
    Transparency and accountability mean that the EPA shares 
the science, the underlying data used to write or promote rules 
that have such tremendous effect that will cost the American 
people in some cases billions of dollars every year. This is a 
matter of not only transparency, not just to Congress but also 
to the scientific community and ultimately to the American 
people.
    Transparency and accountability mean that the EPA should 
recognize and follow the spirit of cooperative federalism, 
working with, not dictating to State partners. The principle is 
built into our most important environmental laws, and too often 
the agency ignores it.
    When we visited, we had a good talk about that, and you 
mentioned the importance of cooperative federalism in our 
meeting. I appreciate that and hope to hear more about what 
that means in today's hearing.
    Transparency and accountability mean that the agency should 
implement laws like the Clean Air Act in the way that Congress 
intended. New authorities and requirements should not be 
suddenly discovered decades after a law was written in order to 
avoid accountability to the democratic process. Transparency 
and accountability mean that all citizens from all points of 
view and sides of the political spectrum will have equal access 
to the agency's activities and processes. A suit and settle 
approach that provides unique access and influence to one set 
of stakeholders on one side of the political spectrum, while 
locking out States and other interested parties, is hostile to 
the democratic values that the agency should uphold.
    Ultimately, I believe you are a very gifted and committed 
individual with the credentials, knowledge and experience for 
the important role. My concern relates to the needs, again, and 
I have said it over and over in this, is the transparency, the 
accountability, the respect for the democratic institutions and 
principles that are foundational in our Country.
    Yesterday I joined several of my colleagues in sending a 
letter to you outlining some concerns that we had regarding the 
agency. I think our requests are just good government, non-
partisan requests based on the principles that should apply to 
all agencies and administrations in both parties. I hope that 
we will get a response quickly, thoroughly, probatively. And I 
hope that today's hearing will allow us to dig into some of 
these issues a little bit more.
    Thank you for being here and we look forward to your 
testimony.
    Senator Boxer [presiding]. Thank you, Senator.
    Our final Senator is going to be Senator Gillibrand. Then 
finally you get to say a word or two. Go ahead.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Madam Chair, for holding 
this hearing.
    I am pleased today to speak in support of the nomination of 
Gina McCarthy to serve as our next Administrator of the EPA. 
President Obama has made an excellent selection by putting this 
nomination forward to the Senate.
    As we have heard from our other colleague today, Gina 
McCarthy is a distinguished public servant with a career 
spanning more than three decades on the Federal, State and 
local level. The past 4 years, she served as the Assistant 
Administrator for the Office of Air and Radiation, where she 
has had a role in some of the most important new environmental 
policies that will protect the air we breathe by reducing 
harmful emissions that threaten our health and accelerate 
climate change.
    With her leadership, the Administration recently proposed a 
new Tier 3 vehicle emissions standard, which will reduce 
tailpipe emissions and protect public health by lowering the 
amount of sulfur in gasoline. This is expected to reduce asthma 
rates in our children. She has also taken a leading role in 
reducing mercury, arsenic and other toxic emissions from power 
plants. For mothers like me, who care what my children breathe 
every day, and the effects that it could have on their health, 
these types of common sense policies are exactly the right 
priorities for the EPA.
    Gina McCarthy has worked at every level of government. I am 
confident that she understands how the regulatory process 
impacts States and local government and brings that perspective 
to the job. With tighter budgets at every level of government 
all across the United States, it is important to have an 
Administrator who can work with local leaders to find common 
ground.
    And her public service has demonstrated that protecting the 
air we breathe and the water we drink is not a partisan or 
ideological issue. It is about protecting our families. She 
served both Republicans and Democrats throughout her career, 
earning praise across the aisle for her pragmatism. Jodi Rell, 
the former Republican Governor of Connecticut, who Gina served 
as Environmental Protection Commissioner, called her a 
dedicated public servant with tremendous talent and passion.
    Madam Chair, the next EPA Administrator will confront a 
broad range of challenges from restoring our significant water 
bodies, like the Long Island Sound, to protecting against the 
threat of climate change, protecting our children from toxic 
chemicals that could harm their development or contribute to 
learning disabilities, autism, cancer, to rebuilding our 
Nation's crumbing water infrastructure. It is critical that we 
have someone like you in that post who can work across the 
aisle to implement effective environmental protections that 
will lead to a healthier population, preserve our natural 
resources for generations to come.
    I applaud President Obama for nominating Gina McCarthy to 
take on this difficult task. I am confident that you are the 
right person for the job. Thank you for your service and your 
willingness to continue to serve the people of the United 
States. Thank you, Madam Chair.
    Senator Boxer. Thank you so much. And I want to thank all 
my colleagues. You have been just so, I think, interested in 
this. It is wonderful to see both sides of the aisle come out 
in the numbers that we have seen.
    Well, Assistant Administrator McCarthy, this is your time. 
We are looking forward to hearing from you. Please proceed.

 STATEMENT OF GINA McCARTHY, NOMINATED TO BE ADMINISTRATOR OF 
            THE U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. McCarthy. Thank you, Madam Chairman.
    Please allow me to express my appreciation to you and to 
Ranking Member Vitter for holding this hearing. I also want to 
thank Senators Warren and Cowan for their kind introductions, 
as well as the members of this Committee for spending time with 
me since my nomination, as well as during my tenure at EPA.
    I would also like to take a moment to thank my family, my 
husband Ken, seated behind me, and my three children, Dan, 
Maggie and Julie, who are hopefully hard at work today. Their 
support has been an endless source of energy and inspiration to 
me.
    I am deeply honored that President Obama has nominated me 
to lead the EPA. Having spent my career in public service, I 
know of no higher privilege than working with my colleagues at 
EPA, with Congress and our public and private partners to 
ensure that American families can breathe clean air, drink 
clean water and live, learn and play in safer, healthier 
communities.
    I take the mission EPA seriously, to protect public health 
and the environment. We have made dramatic progress since 1970, 
when EPA was first created, which gives us very much to 
celebrate. Our air, land and water are significantly cleaner 
and safer today, while the economy has grown and prospered 
during that time. This record of success provides confidence 
that we can meet the very real and significant challenges that 
we still face in protecting American families from pollution 
and in ensuring that future generations can live in a cleaner, 
healthier and safer world, while enjoying even a more 
prosperous economy.
    To that end, I know many members here agree that we must 
ensure that increasingly complex and numerous chemicals we use 
in products are safe. If confirmed, I look forward to working 
with members of this Committee in your effort to reauthorize 
our antiquated chemical safety laws. We must also ensure that 
that water that is so critical to public health, quality of 
life and prosperity is protected from dangerous contaminants, 
including new emerging ones.
    If confirmed, I look forward to working with members of the 
Committee to ensure that EPA's use of science is rigorous and 
transparent, so we can preserve and improve the Nation's water 
quality. And as we continue our efforts to address improved air 
quality, we must also, as the President has made clear, take 
steps to address climate change. Climate change is one of the 
greatest challenges of our generation. And facing that 
challenge with increased focus and commitment is perhaps the 
greatest obligation we have to future generations.
    But I am convinced that we are up to that task. Common 
sense steps can be taken to reduce emissions of greenhouse 
gases while opening up markets for emerging technologies and 
creating new jobs. This Administration has already, through our 
greenhouse gas and fuel economy standards, set us on a path to 
reduce greenhouse gas emissions by 6 billion metric tons, just 
by doubling the efficiency of cars and other light duty vehicle 
by 2025, which will save consumers an average of $8,000 at the 
pump and reduce our reliance on foreign oil by 12 billion 
barrels.
    This national car program was a joint effort of States, the 
automobile industry, labor, environmental organizations, 
consumer advocacy groups and the Federal Government. It is one 
of the best examples of a key lesson that I have learned during 
my many years of public service. Public health and 
environmental protections do not come solely out of government, 
and they don't come solely out of Washington, DC. They happen 
in States, cities and towns all across the U.S. when people 
take action to make their homes more efficient, their 
businesses run better, their products perform better and their 
communities cleaner, healthier and safer.
    Prior to coming to EPA in 2009, I was lucky enough to spend 
more than 25 years working at the State and local level, 
listening to, learning from and being inspired by people from 
all walks of life. And that brings me to one more important 
lesson that I learned. Environmental protection is not a 
partisan issue. I worked for and with Republicans, Democrats 
and Independents, who all shared a common desire and 
willingness to roll up their sleeves and figure out what kind 
of common sense approach we could take to be responsible and to 
act consistent with the laws and the science.
    That is why my door is always open, that is why I listen 
well and I welcome all views. I know from our meetings and 
discussions that you share my passion and my commitment for 
serving the American people. I am fortunate enough, if I am 
confirmed as EPA Administrator, to continue to work with you, 
Chairman Boxer, Ranking Member Vitter and all the members of 
this Committee, over the coming years, to serve the American 
people.
    Thank you very much, and I look forward to taking your 
questions.
    [The prepared statement of Ms. McCarthy follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Boxer. Thank you so much, Assistant Administrator 
McCarthy, for that statement.
    I want to place in the record, if there is no objection, 
letters that have come in in support of your nomination. Six 
presidents of the American Association for the Advancement of 
Science, the Executive Director of the American Public Health 
Association, Charles Warren, former regional administrator 
under the Reagan administration, Gloria Bergquist, Alliance of 
Automobile Manufacturers, Randy Spronk, President, National 
Pork Producers Council, William Becker, National Association of 
Clean Air Agencies. I like particularly what he wrote: ``She is 
brutally honest, very fair, humorous and an incredibly hard 
worker. She is not an ideologue, she is a practitioner.'' I 
just thought that sums it up.
    John McManus, Vice President, American Electric Power, Jodi 
Rell, former Republican Governor of Connecticut, Scott Segal, 
Partner, Bracewell and Guiliani, Houston law firm that works on 
business law, finance, litigation and regulatory policy, and 
Chris Wood of Trout Unlimited.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. So the point is, putting these in the 
record, there is a reason. This is a very balanced group of 
people. They don't agree with each other and I am sure they 
don't always agree with you, Madam Administrator. So I think it 
speaks well.
    The second thing I would like to put in the record, without 
objection, is this. I want to make sure this is OK with EPA. 
Senator Vitter and his colleagues sent you some very important 
letters with some very important questions. And it is my 
understanding, and I have these letters here, you have 
responded to him. And I would like to put these letters in the 
record at this time, if there is no objection, in the interest 
of transparency that is so important to both sides of the 
aisle.
    So we will do that.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Boxer. But also, ask you if you intend to make 
those letters public?
    Ms. McCarthy. Yes.
    Senator Boxer. OK.
    Now, I guess because this is such an important position, 
and nobody could possibly reflect every point of view on this 
panel, I think we need to rise above our own particular 
ideology and look at the human being and why you are willing to 
do this. So I have a question, it is very open-ended and it is 
not particularly scientific. But what was it that kind of 
inspired you to get into this line of work so many years ago 
and stick with it?
    Ms. McCarthy. That is a good question, Chairman. Let me 
take a bit of a shot at it. When I went to graduate school at 
Tufts, my intent was to go into the field of public health. I 
began actually in Providence, Rhode Island, as my first job out 
of graduate school, working in community health centers. I was 
really interested in the delivery of health care at that time, 
particularly to underserved and poor populations.
    And my mother got ill and I went home to take care of her, 
wanted a job nearer home. Ended up finding a job in my own 
hometown in Canton, and I found myself as the health agent 
there. All of a sudden, there was a big controversy about some 
PCB barrels that had been found in the woods. And I found out 
that neighbors that I had lived near for all my life were very 
concerned about whether those barrels and that spill was 
causing them to have cancer in their community. I got embroiled 
in a controversy that I was totally unprepared for but worked 
my way through. And I began to realize that a career in public 
health could very much be related to protecting the 
environment.
    I realized very quickly how important it was to people in 
the community to feel like somebody was protecting them from 
those challenges. It was in the 1980s, it was when things were 
unfolding. Great Federal laws were being implemented and I just 
got swept into that. And it has been a great experience ever 
since.
    Senator Boxer. I want to thank you for that.
    Senator Crapo and I have been working to pass legislation 
that, it is interesting, it is very much along these lines, 
where if there is a cancer hot spot, that the EPA and other 
agencies could go in and help them figure out what is causing 
this. So these concerns continue in the U.S. Senate today.
    There is this whole thing about emails. It was raised again 
by Senator Boozman. Senator Boozman, in my opening statement, I 
explained that this idea of having a secondary email was 
started by Christine Todd Whitman and was continued by all the 
Republicans and Democrats following. One Republican had as a 
moniker <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="31455e5744715441501f565e471f">[email&#160;protected]</a> So they all have used it, because they 
get a million emails to the primary email. And in order to 
figure out what they need to answer, they have all done this.
    So I don't think it is anything nefarious. But I would like 
to ask you for the record, I understand the EPA Inspector 
General is looking into the agency's email management 
practices. Are you aware of this effort and you could describe 
to us what you know as of this date, how that is going?
    Ms. McCarthy. Yes. The Inspector General is actually doing 
an audit in which we all participating. I certainly feel, and I 
believe the agency does as well, that it is a great opportunity 
for us to have their independent view of what we are doing well 
and what we can improve on. I know that Acting Administrator 
Perciasepe is working closely with them and we are going to be 
taking their recommendations to heart and doing everything we 
can to improve the system at EPA, as we always would.
    Senator Boxer. OK. I am going to yield my time to Senator 
Vitter. Before I do, I just have to ask you, as Chairman of the 
Committee, if confirmed, will you focus on ensuring the agency 
complies with all laws, including the Federal Records Act and 
the Freedom of Information Act?
    Ms. McCarthy. I will, Chairman.
    Senator Boxer. Thank you very much.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. And thank you, Ms. 
McCarthy, for your service and for being here. I appreciate it.
    First, just in reaction to some of the Chair's comment 
about some of these aliases, let me just go on record as saying 
Richard Windsor, that sounds pretty monarchist. Now, a lot of 
folks would say that is appropriate for EPA, but I personally 
vote for tofu. I think that is even more on the mark.
    Ms. McCarthy. I am a meat-eater, myself.
    [Laughter.]
    Senator Vitter. As was said, this whole side of the aisle 
has focused on a lot of transparency concerns. And that has 
really been my sole focus in terms of defining those five 
requests that I gave you when we first met. And again, just to 
make clear, because I think Barbara was a little mistaken about 
it, that didn't come up yesterday. We talked about that the 
first opportunity we had to meet.
    Ms. McCarthy. Yes.
    Senator Vitter. And then we repeated it in writing 
yesterday in a letter from all of us. But I gave you that in 
writing and substance when we first met many weeks ago.
    So I want to focus in that area, because I think it is so 
important. Again, I am, quite frankly, disappointed. The 
responses we have gotten that are now in the record in my 
opinion address about one and one-quarter of the five areas. 
And so three and three quarters I think have not been responded 
to in a meaningful way. That is what I want to explore.
    So let's start, the Chair has brought up the alias email 
accounts, which I think is largely a straw man. I want to start 
with the real man, which is personal email accounts. As you 
know, there has been a pattern of abuse using personal email 
accounts at EPA, led directly to one regional administrator 
resigning. In my opinion, it is clear that this practice in 
many cases was used to hide information from the public. So my 
question comes from that, and it is No. 2 in what we have 
discussed in the letter. Did you ever use private email 
accounts to conduct official EPA business?
    Ms. McCarthy. Ranking Member, can I just start by sharing a 
concern for transparency and accountability? I want you to know 
that I care as much about this as you do and other members who 
have mentioned this to me in our private meetings.
    Throughout my career, I have done everything I can to focus 
on complying with the laws relative to transparency and 
accountability. I am certainly not new to public service, and I 
know these obligations. I do not conduct business through 
personal email. As we discussed before, when we met in person, 
there are times when I have gone home to Boston and I have used 
my personal email to send documents from EPA.gov, from my 
office at home for printing and review purposes to facilitate 
those. But those have never left the Government email system. 
Those have always been sent back and are discoverable and they 
would comply with FOIA and the Federal Records Act.
    Senator Vitter. OK. Now, when we talked, you gave me 
basically the same response, ``to the best of your 
recollection.''
    Ms. McCarthy. Yes.
    Senator Vitter. Are you completely confident that that 
recollection is perfect?
    Ms. McCarthy. Senator, you asked me that, and I want to be 
very honest with you. I have thought about this a lot. I also 
responded to your question as to whether or not my recollection 
was right. And I did go back and I searched my emails. I went 
back to my personal accounts, I took a look at those so that I 
could see whether the work practice that I believed I developed 
I actually carried out faithfully. And I did not find any 
circumstance in which I transferred documents from EPA to 
anything other than back to an EPA website. And they have been 
maintained and are discoverable. There was one exception, and 
it wasn't a document. I did find when I went back and searched 
that in my husband's email there was an unsolicited incoming 
email that was sent for me. As soon as I saw it, I shipped it 
into the EPA site.
    Senator Vitter. So from what I am understanding of your 
answer, that certainly includes not using your personal account 
to correspond with anyone else about EPA official business?
    Ms. McCarthy. That is correct.
    Senator Vitter. I have the same question regarding 
something that has come up in EPA and that the Acting 
Administrator has expressed concern about, which is EPA instant 
messaging accounts. The concern is that there is no clear 
record of that. Have you ever used instant messaging accounts 
to conduct EPA business?
    Ms. McCarthy. One good thing about being 58 is I don't even 
know how to use them.
    [Laughter.]
    Ms. McCarthy. I have never used an IM, I don't know how. 
Sorry. You got to admit it.
    Senator Boxer. OK, moving to Senator Sanders.
    Senator Sanders. Thank you, Senator Boxer. Ms. McCarthy, in 
my State, we take environmental issues quite seriously. We are 
proud of our record. Last month we had a town meeting on global 
warming, we had 600 people coming out, including a whole lot of 
young people.
    So let me begin by asking you, do you believe that global 
warming is real?
    Ms. McCarthy. I believe that the science is overwhelming, 
yes.
    Senator Sanders. Do you believe that global warming is 
significantly caused by man-made activities?
    Ms. McCarthy. I do think man-made emissions contribute to 
global warming, yes.
    Senator Sanders. Senator Boxer and I have heard from 
scientists who have told us that they worry very much, no one 
can predict weather in the future, that is for sure. But 
Senator Boxer and I have heard from scientists who tell us that 
they fear that the temperature of this planet can warm by as 
much as 8 degrees Fahrenheit by the end of this century. Is 
that something that you have heard and see as plausible?
    Ms. McCarthy. I have heard a number of ranges of warming, 
yes.
    Senator Sanders. Can you give us some idea as to what role 
you think the Government, and in particular the EPA, should 
play to address what I believe, if that happened, would be a 
monumental and catastrophic crisis for this Country and for the 
planet?
    Ms. McCarthy. Well, President Obama has indicated that he 
would look forward to congressional action on climate. But in 
the meantime, he has asked each of the agencies, including EPA, 
to look at our administrative authorities and what reasonable, 
common-sense steps can we begin to take that more effectively 
tackles the challenge associated with carbon pollution. Carbon 
pollution, greenhouse gases, are a pollutant under the Clean 
Air Act. That has been made very clear to EPA. We are 
regulating greenhouse gases as pollutants. But again, we are 
doing it in common sense steps so that we can make sure that 
the economy continues to grow. But we believe that we have 
opportunities for mitigating carbon pollution moving forward, 
and we are looking at our tools and the availability of them.
    Senator Sanders. Let me ask you a two-part question. Many 
of my Republican friends have appropriately enough and 
correctly enough talked about the economy. We are all concerned 
about the economy. I would like to reverse that question a 
little bit and ask you, if we do not get a handle on climate 
change, if we continue to see more extreme weather 
disturbances, we don't know, most of us voted for $60 billion 
just to deal with the aftermath of Hurricane Sandy.
    What are the economic consequences in terms of drought, 
fires, floods, more extreme weather disturbances if we do not 
get a handle and reverse climate change?
    Ms. McCarthy. Senator, the economic exposure associated 
with climate change is quite large, not just domestically, but 
as a national security issue. I would also caution that the 
climate change that we already see and is happening is 
requiring us to look at adaptation plans for how our cities and 
towns can be more resilient. That in and of itself is a 
significant investment in infrastructure that we really need to 
begin to plan for.
    Senator Sanders. Let me ask you, the second part of the 
question is, do you see economic opportunities as this Nation 
moves forward aggressively in dealing with greenhouse gas 
emissions?
    Ms. McCarthy. Senator I think in my opening remarks, I gave 
the best example on the ground that I can give, which is the 
clean car program that the President has moved forward with. 
That is going to improve our national security, reduce carbon 
pollution significantly and give people cars they want to drive 
that are much more efficient. There are many ways in which we 
can hopefully turn this climate challenge into an opportunity 
for a clean energy economy.
    Senator Sanders. Would you agree, and in Vermont, we are 
developing some strong energy efficiency programs. Clearly the 
fastest, most cost-effective way of dealing with pollution or 
greenhouse gas emissions is to have less of them through energy 
efficiency. Would you be sympathetic to an aggressive effort 
toward weatherization and energy efficiency in this Country?
    Ms. McCarthy. Very much so. This Administration has put 
considerable funds into those efforts. I think they are right 
on target in terms of some of the best things we can do for the 
American public while at the same time reducing carbon 
pollution.
    Senator Sanders. What about supporting sustainable energy, 
like wind, solar, geothermal, biomass?
    Ms. McCarthy. That must be part of the all of the above 
strategy as we move forward. Yes.
    Senator Sanders. I thank you very much, Madam Chair.
    Senator Boxer. Thank you.
    Apparently I made a mistake. There was an agreement that 
each one would get 7 minutes for questions. I took 5. Senator 
Vitter took 5. So we are going to do 5. And if people want to 
stay they can get their next 2 minutes for a second round. 
Because it is, we have been going since 10:30. And we are going 
to proceed now, and the next person is Senator Barrasso.
    Senator Barrasso. Madam Chairman, I think Senator Inhofe is 
next.
    Senator Boxer. Forgive me, I just got the new rules. 
Senator Inhofe.
    Senator Inhofe. Thank you, Senator Barrasso.
    Since it was 5 minutes, we are going to have to make this 
real quick. I have three questions and three answers. I am 
going to be quick and I will ask you to be, too.
    I am concerned that the EPA has been circumventing the 
appropriate administrative process for developing its rules and 
settling scores of lawsuits brought by environmental groups 
instead of actually litigating them. Even though the States are 
significantly affected by these, they have left out the 
process.
    Now, Scott Pruitt, who is the attorney general for my State 
of Oklahoma, and several other AGs from other States, filed 
FOIA requests asking the EPA to release information about these 
settlements. But the EPA has denied its request for a fee 
waiver. We understand what that is.
    My question to you is, if I make that request to you, would 
you supply me with that information?
    Ms. McCarthy. Senator, that isn't an area in which I have 
had authority. So I will certainly go back and take that back 
to the agency and respond as quickly as I can to your request.
    Senator Inhofe. All right, I appreciate that very much.
    The EPA overturned Oklahoma's regional haze plan after the 
consent decree, citing the plan's cost estimate as inaccurate. 
Oklahoma's plan was a low-cost plan, $100 million, as opposed 
to $1.8 billion which would have been for the EPA's. It is that 
much more costly.
    Now, are you familiar with this? These are the two plans, 
the outcome of the plans that no one has actually refuted. Can 
you tell me whether or not you would take our plan, our State 
of Oklahoma plan, and save the taxpayers $1.7 billion?
    Ms. McCarthy. Senator, again, this is an area that I 
oversee. I am not exactly familiar with the plan that you are 
talking about. I am more than happy to respond to that in 
writing.
    Senator Inhofe. You are not familiar with the two plans?
    Ms. McCarthy. I actually have gotten very engaged in 
Oklahoma in particular, one of the plans, because we did 
propose a regional haze strategy for that plan. We actually 
worked with the region and we worked with the Governor's 
office. We worked with the company and we developed a plan that 
was more suitable for them, which they are now proposing back 
to us for public comment. So the one that I am familiar with we 
worked very well with the State on and I think they should be 
happy with.
    Senator Inhofe. Thank you very much.
    I have become real troubled by the EPA's actions. When the 
agency uses discretion, it has to further a climate change 
agenda. This has been especially problematic for the new source 
performance standard for greenhouse gases in the utility 
sector, wherein the EPA has forced all power plants to meet the 
emission standards of natural gas plans.
    Now, what we are getting to here is the category, of 
changing the category from, as it has been historically always 
a category of oil, gas and coal. In fact, the gas broken down 
into segments. So my question would be, would you commit to 
repropose a rule of the EPA's as the President has been in the 
past, as opposed to accepting this one what I would call the 
sub-categorized approach that they are taking?
    Ms. McCarthy. Senator, first, let me say that I really 
appreciate the comment. We have heard similar comments in the 
comment period. We have received 2.7 million comments on that 
proposal, which tells me that there is great interest in what 
we do. I will assure you that we are going to take that comment 
into consideration as we look at finalizing a rule. I don't 
want to tell you now at this point.
    Senator Inhofe. You can't tell me now in terms of the sub-
categorizing you have been doing that you would be willing to 
go back to the precedent that has worked for quite a number of 
years and that I would prefer?
    Ms. McCarthy. I am more than willing to take that comment 
into consideration and work it through in the public process, 
Senator.
    Senator Inhofe. During your confirmation hearing back in 
2009, I recall that you said that coal is a vital resource. In 
light of this new standard, have you changed your mind on that?
    Ms. McCarthy. Not at all, Senator, no.
    Senator Inhofe. Can you explain why you used your 
discretion at the Air Office to abandon the longstanding Clean 
Air Act precedent? Why did we change the categorization issue 
in the first place?
    Ms. McCarthy. We actually took a look at the two categories 
and we made a policy decision that it was a most appropriate 
way to look at energy generation, was to combine those 
categories. But we believe that the proposal we put out created 
a pathway not just for natural gas facilities, new ones, but 
also for new coal.
    Senator Inhofe. Well, is that policy one that can be 
reversed? Well, it can be reversed, would you assist in 
reversing that policy back to as the President has set in the 
past?
    Ms. McCarthy. I believe that that is part of the comments 
that we received, and we will be giving that consideration, 
Senator.
    Senator Inhofe. I have a third question that I have a 
feeling I am not going to be able to get through here.
    Senator Boxer. Senator, we have so many waiting. Senator 
Barrasso.
    Senator Barrasso. Thank you, Madam Chair.
    I want to first respond to something that the Chairman said 
about the dual email accounts, saying everybody does it. There 
is an April 11th, 2008 EPA memo from the agency's own agency 
records officer that states ``This dual account structure was 
first implemented during the former administrator, Carol 
Browner's, tenure.'' It goes on to say, though, ``The secondary 
email accounts are configured so the account holder's name 
appears to be in the sent by field,'' so people actually know 
who it is sent by. So the email alias Richard Windsor does not 
comply with the rules.
    So I would ask you, if confirmed, will you please comply 
with the EPA rules with regard to the secondary email accounts 
that have been outlined in this document? And Madam Chairman, I 
ask that this EPA document, letter be included in the record.
    Senator Boxer. Without objection.
    [The referenced information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Madam Chairman.
    Ms. McCarthy. Senator, I am not familiar with the document, 
but I will certainly take it back to Acting Administrator 
Perciasepe and we can respond to that.
    Senator Barrasso. Well, it is the rules of the EPA from 
April 2008, and it says that the address of the secondary 
account has to be configured so the account holder's name 
appears in the sent by file. And yet, I have a whole pile of 
emails from Richard Windsor to you and from you to Richard 
Windsor. Your name appears appropriately, but Richard Windsor's 
does not, anywhere.
    So I would say that this is a practice, I wonder if anybody 
at the EPA objected or if you personally objected to EPA 
Administrator Lisa Jackson using an alias that was absolutely 
against the policy of the EPA? And your emails back to her, as 
Richard, go back to 2009.
    Ms. McCarthy. Senator, I am just not familiar with the 
policy you are reading from, but I will certainly be happy to 
familiarize myself with it.
    Senator Barrasso. I think it is important for all of us to 
know if the EPA and this Administration are going to be 
transparent or are intentionally deciding to try to deceive the 
American people.
    Senator Boxer. Without losing any time, could you stop the 
clock? Would you, since we are asking Gina McCarthy, could we 
ask all those Republicans also?
    Senator Barrasso. This is a 2008 document, April 2008. So I 
am not asking Carol Browner, who wasn't there at the time, 
although she started it, and the people during the Bush 
administration. That is fine.
    Senator Boxer. Yes, but I just think it would be 
interesting to ask them as well. So I am going to do that. I am 
going to ask them as well. Go ahead.
    Senator Barrasso. Thank you, Madam Chairman.
    The President said during his State of the Union address 
that if Congress won't act soon to protect future generations 
that he would direct the Cabinet to come up with executive 
actions he said we can take in terms of pollution and prepare 
our communities for the consequences of climate change. This 
Administration has attempted to pass highly controversial 
legislation regarding climate change in terms of expanding the 
definition of even Federal waters among others. Clearly, 
Congress, in a bipartisan way, rejected these efforts by the 
President in terms of climate change, rejected the issues of 
Federal waters. The people in the House and the Senate who 
introduced the Federal waters legislation, they both lost the 
re-election bids.
    So the EPA doesn't seem to care about any of the thoughts 
of the American people. They have moved forward, regardless, to 
attempt to enact these proposals despite the will of the 
American people, bipartisan. This includes climate change 
rules, it includes clean water jurisdiction.
    So I ask of you, you are looking to replace Lisa Jackson, 
do you disagree with any of the actions that the EPA 
Administrator Jackson has taken with regard to Clean Water Act 
jurisdictional guidance or climate change rules?
    Ms. McCarthy. Senator, I respectfully ask if I could just 
stick with the Air program. I understand that there are many 
issues that folks are concerned about on the water side. I just 
can't speak to those directly. But I know the rules that we 
have put forth that regulate carbon pollution are rules that we 
believe that the Clean Air Act requires us to regulate or is 
appropriate given the law and the science.
    Senator Barrasso. Thank you. In January of this year there 
was a proposed new coal-fired power plant that was canceled in 
Corpus Christi, Texas, a $3 billion plant that would have 
employed 3,900 folks. The CEO of the company that was to build 
the plant stated that the plant, he said, is a victim of the 
EPA's concerted effort to stifle solid fuel energy facilities 
in the United States, including the EPA's carbon permitting 
requirements and the EPA's new source performance standards for 
new power plants. The same month, Georgia Power announced the 
EPA emissions standards are being blamed for the closure of 15 
coal-fired power plants and the loss of nearly 480 jobs in 
Georgia.
    Since you have taken office, 10 percent of coal-fired 
generated power in the United States has been taken offline. 
Thousands upon thousands of people are now out of work. More 
get laid off with each plant closure and each proposed project 
that gets killed. Do you see the EPA having any responsibility 
for the thousands of folks who are out of work for these plant 
closures?
    Ms. McCarthy. Senator, I believe that coal has been and 
will continue to be a significant source of energy in the 
United States. I take my job seriously when I am developing 
standards for protecting public health, to take a look at the 
economic consequences of those and do my best to provide 
flexibility in the rules.
    Senator Barrasso. Thank you, Madam Chairman.
    Senator Inhofe. Madam Chairman, I meant to ask one question 
for the record, would you allow me to do that.
    Senator Boxer. We will put it in the record for you.
    Senator Inhofe. But I think it is important that I ask the 
question.
    Senator Boxer. Senator, please, then, you need to wait. We 
are going to have another 2-minute round. Senator Cardin.
    Senator Cardin. Thank you, Madam Chair. I am willing to 
give 30 seconds to my friend, if he would like to use it.
    Senator Boxer. That is fine, thanks for yielding.
    Senator Inhofe. Thank you very much, Senator Cardin, and I 
appreciate that so much from my old classmate from 1986.
    Senator Boxer. Your 30 seconds are up.
    [Laughter.]
    Senator Inhofe. The question I was going to ask was, the 
decision that the Sixth Circuit Court of Appeals came against 
the EPA, and they are only applying that to the Sixth Circuit, 
so the question is going to be, will you be willing to commit 
to apply the Sixth Circuit court decision to the rest of the 
Country? You may want to say yes right now.
    Ms. McCarthy. Senator, I am more than willing to go back 
and talk to our attorneys and see what the implications of that 
are and get back to you as soon as I can.
    Senator Inhofe. Thank you, Senator Cardin.
    Senator Cardin. Well, you are quite welcome.
    First, let me again point out, we are all concerned about 
the impact that the work that you do will have on our economy. 
Jobs are critically important. We want the work to be done in a 
very transparent, open way. You have already indicated that is 
how you do business, and your record at EPA has confirmed that.
    Let me just put on the record, and I would appreciate any 
response that you want to make to it, when a Maryland family, 
when their child is not able to go to school because of asthma, 
and a parent who would be working now has to take a day off 
from work, that affects that family's income. So if we don't 
enforce the Clean Air standards the way we should enforce the 
Clean Air standards, there are going to be parents who are 
going to miss work days as a result of their children missing 
school days. I have had Maryland families tell me that they 
paid good money for a summer camp for their children only to 
find that because of the warnings, they can't send their 
children out on that day because of air health risks. That also 
affects what the parent does that day in taking care of their 
child that they assumed would be in camp that can't be in camp.
    My point to you is, there is a reason why we want cost-
benefit analysis, there is a reason why we want to be able to 
understand the impact. And there has been voluminous material 
made available to this Committee as to the premature deaths, 
the amount of hospitalizations, the amount of extra hospital 
care, et cetera, as a result of the dirty air or dirty water or 
not enforcing at the level that we can. I just really want you 
once again just to assure this Committee that in implementing 
the laws that Congress has passed, we passed the laws, we 
passed the Clean Water Act, we passed the Clean Air Act, we did 
that because we thought we had a responsibility for public 
health and our future environment, that you will be guided by 
the best science, by the cost-benefit analysis that you do, 
that you are doing currently, but that it will be balanced, 
including looking after the responsibilities Congress entrusted 
upon you as a result of the passage of these laws.
    Ms. McCarthy. It would be an honor for me, as you indicate, 
to let the law, the science, transparency, accountability and 
cost-benefit guide my judgments.
    Senator Cardin. I thank you for that. Let me say, Ms. 
McCarthy, you have a reputation, and I know some of my 
colleagues on both sides of the aisle have said this, of being 
true to your word, of being open, of being transparent. That is 
the type of Administrator that we need at the Environmental 
Protection Agency. We had it from our current Administrator. 
Lisa Jackson, to me, did a great public service to this 
Country. She was always very straight with this Committee and 
very clear about the responsibilities and the manner she was 
going to continue to conduct her public life.
    We just want to make sure, and your record indicates that, 
but that is the type of Administrator we need. Look, we are 
going to have our differences. You can see that today. There 
are more differences, I think, among the members of this 
Committee than there is with the witness before us. And that is 
our job. Your job is to carry out the law and do it the best 
that you can in an open, transparent way, letting best science 
judge your work. I thank you for being willing to commit to do 
that, and your record gives us great confidence in fact you 
will carry out those responsibilities in that regard.
    Senator Boxer. Thank you, Senator Cardin. Senator Fischer.
    Senator Fischer. Thank you, Madam Chair, and thank you, Ms. 
McCarthy, for being here again today. I do appreciate you 
offering yourself for extended public service.
    In Nebraska, we are very serious about our environmental 
stewardship and our conservation management. But I get calls 
and I get letters every day from Nebraska farmers who are 
concerned about the compliance challenges associated with EPA's 
spill prevention control and countermeasure rule for the on-
farm storage, fuel storage.
    Allow me to share a portion of one such constituent email 
that I recently received: ``We just became aware of this 
regulation yesterday through an email from Farm Bureau. Since 
we have a large quantity of on-farm storage capacity, we are 
not able to self-certify and must hire a professional engineer 
to create a plan. In order to find a qualified engineer, I 
first called the EPA, who then told me to call the Region 7 
office out of Kansas City, who then told me to call the 
Nebraska Board of Engineers who then told me to call the 
Nebraska Society of Professional Engineers. But the number on 
their website is no longer in service. So when I asked the 
gentleman from the Nebraska Board of Engineers how much it 
would cost, he said anywhere from $1,500 to $4,800, depending 
on the complexity and the engineer's ability to charge more due 
to this now high demand, due to the approaching deadline. When 
I asked the gentleman from the EPA Region 7 office why we 
hadn't heard about it before now, he said the ruling was in 
place for a long time, but they hadn't done a good job of 
getting the word out.''
    As you are aware, bipartisan legislation has been 
introduced that would raise the exemption levels for the fuel 
storage capacity. I think that better reflects the spill risk 
and the financial resources of farms. Would you support this 
common-sense solution that would help to ease these regulatory 
burdens?
    Ms. McCarthy. Senator, thank you for raising the question. 
I believe this is an issue that Congress has dealt with, at 
least to give some temporary leeway to take a look at this 
question. I am more than happy to go back and take a look at 
it. I think as we have talked when we were together, I think 
the agency has bridges to build with the agriculture community. 
I would look forward to tackling that with you and others. 
Because I know just how hard the farming community protects 
their resources. And I want to make sure that we have an 
opportunity to change the relationship between that community 
and EPA.
    Senator Fischer. I appreciate that.
    Do you know if agriculture has any history whatsoever of 
any large oil or fuel spills?
    Ms. McCarthy. I am not aware of any directly, but we 
certainly can get back to you, Senator.
    Senator Fischer. Thank you. Another question I have, again, 
we had the opportunity to visit earlier this week about that 
deteriorating relationship between agriculture and the EPA. And 
farmers and ranchers have become increasingly frustrated with 
the bureaucracy that doesn't seem to understand the nature of 
our business or appreciate the pride that we take in our 
stewardship.
    So I would like to ask you about one recent example of EPA 
action that I think illustrates this problem that we have. And 
that was the release by EPA of the animal feeding operators 
personal information to environmental activist groups. Then the 
EPA is now asking for the information back. There is the 
perception out there that there is collusion between EPA and 
some of these activists. The Department of Homeland Security, 
they expressed explicit concern to the EPA about the creation 
of a national database about our animal feeding operations, 
because of the risk that it would impose on our food supply as 
a Nation.
    Would you commit to not developing, contracting for or 
implementing such a data base during your tenure, if you are 
confirmed?
    Ms. McCarthy. Senator, what I will commit to, because I am 
not familiar with this database, is to continue, I think, the 
path forward that Acting Administrator Perciasepe has taken, 
which is to get that information back and to follow up with 
Ranking Member Vitter and others who are concerned that we 
really improve the system at EPA. I know that there is great 
concern that that information went out. I understand that 
concern. And I would do everything I could to make sure that 
those errors are not repeated.
    Senator Fischer. Thank you. Because I do view this as a 
national security concern as does Homeland Security. So thank 
you very much.
    Senator Boxer. Thank you very much.
    We will turn to Senator Merkley and then Senator Sessions.
    Senator Merkley. Thank you very much, Madam Chair.
    And thank you, Ms. McCarthy, for being here. I wanted to 
address biomass. I come from a part of the Country that has a 
lot of biomass. And thus I recall once in a meeting someone 
said to me, wouldn't it be great if we just had something that 
would take carbon dioxide out of the air? And I was able to 
respond and say, well, you will be glad to know we grow 
millions of those in Oregon.
    [Laughter.]
    Senator Merkley. I really do appreciate an important 
decision that was made under your direction for a 3-year 
deferral on biogenic greenhouse gas emissions. This was related 
to the tailoring rule and the goal is to understand the 
difference between fossil fuels and biomass and to create a 
framework for analyzing that. That framework, my understanding 
is that has been completed and is being submitted to an 
independent scientific advisory board. And that the preliminary 
findings are that biogenic or biomass does have some carbon 
emissions related to transportation, et cetera. But because it 
takes carbon from the atmosphere and returns it to the 
atmosphere, the overall life cycle impacts are much, much 
lower. That is a very important thing to learn in terms of a 
scientific framework.
    The expiration of the deferral is fast approaching. We have 
1 year left on it. My goal is that we bring this scientific 
information to bear so we don't put very different types of 
products into the same basket, if you will. Will you just share 
a comment?
    Ms. McCarthy. Senator, just to thank you for your 
leadership on this issue. I know it was a big concern of your 
State and others in that area, as well as folks in the 
Northeast and down South that we recognize the difference of 
biogenic emissions and that we properly study that and take a 
look at how we would account for that in any process moving 
forward.
    We got great advice from the Science Advisory Board, as we 
always do when we put our studies out for peer review. We are 
looking forward to resolving this issue in a way that I think 
people will agree is thoughtful and appropriate. We need to do 
that quickly because we have a July 2014 time line that is 
right in front of our heads, Senator, and we will work with you 
on it moving forward.
    Senator Merkley. Thank you.
    Second, I want to turn to the Portland Harbor superfund. 
This is a section of the Willamette River where a lot of 
industrial activity took place, including a lot of shipbuilding 
during World War II. We are anxious to get through the planning 
and into the actual efforts to clean up the river. Complex 
combination of capping sediments or removing sediments. So far, 
it has been years and years and years, decade plus counting of 
studies. I would like, I am hoping that you will bring the 
philosophy of at some point you have to actually get in there 
and do the work, not just keep spending money on more and more 
studies.
    Any thoughts on your part?
    Ms. McCarthy. Well, Senator, having worked at the State 
level for a long time, I know these issues are very difficult. 
I also know they are incredibly important. I have worked on 
issues related to the clean up of the Boston Harbor, the clean 
up of the New Bedford Harbor, clean ups in Long Island Sound, 
clean ups in the Housatonic. I understand the need to study, 
but I also understand the need to take action. People value 
these resources, and we need to make sure that we move from 
study to action. To the extent that we can work together on the 
Portland Harbor, I would really appreciate that and hopefully 
we can make some efforts moving forward, if I have the honor of 
being confirmed.
    Senator Merkley. We have a group of potentially responsible 
parties that have stepped forward to form a working group to 
work in close cooperation with EPA to try to get through the 
appropriate studies and get to the action. This minimizes costs 
and maximizes clean water. I hope the EPA will work very hard 
to utilize that close partnership.
    Ms. McCarthy. Thank you, Senator.
    Senator Merkley. Fuel economy standards, thank you for your 
work on tailpipe pollution and increasing the mileage 
standards. I was struck by the numbers, that it will result in 
$8,000 in fuel savings per vehicle, saving families $1.7 
trillion at the pump. That is a lot of money spent in other 
places, a benefit to our American families.
    This work then is one of those places where a higher 
quality of life for families, more money to spend elsewhere, 
cleaner air, the money spent elsewhere stimulates the economy. 
Seems like a win on all fronts.
    Ms. McCarthy. Well, and some of the best things, the best 
outcome is that the automobile industry is thriving again.
    Senator Merkley. Thank you. My time is expired.
    Senator Boxer. Thank you very much.
    Senator Sessions.
    Senator Sessions. Thank you. Well, as I indicated, Ms. 
McCarthy, the Environmental Protection Agency has extraordinary 
powers over virtually every American. They have the power to 
impact our lives in ways that I don't think Congress 
contemplated when they authorized this agency or contemplated 
when they passed the Clean Air Act. It is a serious problem 
that I hear all the time. I had a group of shopping center 
people in yesterday, that was one of their three or four top 
issues, EPA issues they felt was wrongly decided. It is across 
the board.
    So your nomination is important. I am going to submitting 
to you some 30 some questions for the record that deal with a 
lot of important issues, how you think and how you will 
administer this agency. And I would expect that you will give 
us a candid reply. Will you do that?
    Ms. McCarthy. I absolutely will. And Senator, thank you for 
spending more than an hour with me yesterday. I know it was an 
incredibly busy day and we had a great conversation.
    Senator Sessions. It was a valuable exchange. We talked 
about a number of things.
    I would like for you to tell me, and tell this Committee 
and the American people, that you understand the seriousness of 
the regulatory responsibilities that you have and that you will 
say no to anyone in the Administration, to political interests 
or the President himself if he is asking you to shortcut or to 
conduct regulatory procedures and processes that you believe 
are not consistent with the highest standards of the EPA 
Administrator.
    Ms. McCarthy. Senator, I will abide by the highest standard 
that the law and the science asks me to do. We will be having 
good conversations to make sure that you hold me to that.
    Senator Sessions. That is good. I mentioned the brick 
company making those items that make Americans' homes better 
and better. In 2005, Henry Brick spent $1.5 million on 
scrubbers, dry lime, absorbers that would remove pollutants. 
And I am told they removed 90 percent of the pollutants there. 
Other brick companies spent $100 million so far. But then an 
event occurred. Sierra Club filed a lawsuit, as many 
environmental groups do, challenging the EPA's rule. In 2007, 
after the industry had come into compliance with EPA's rule, a 
court invalidated that.
    Ms. McCarthy. That is correct.
    Senator Sessions. The EPA's Air Office, under your 
leadership, entered a settlement agreement with Sierra Club 
establishing a much more ambitious schedule for finalizing new 
and more stringent Brick MACT rules. So under the proposed 
consent decree, EPA must propose a new Brick MACT rule by 
August of this year, and finalize it by July 2014. Is that 
correct?
    Ms. McCarthy. That is the current settlement schedule, I 
believe, Senator. But I can get back to you. My memory may not 
be exact on that.
    Senator Sessions. So this could be a much more costly rule. 
It could add up to $8 million to Henry Brick, they say, 
hopefully not. So I will submit for the record letters from a 
series of brick companies in my State that expressed real 
concern about that.
    Ms. McCarthy. Senator, the only thing I can add is, I do 
know that this particular sector has a number of small 
businesses. In fact, I think most are small businesses. And we 
are going to have to be incredibly sensitive to the impact of 
any proposed rule, never mind the final, and go through the 
appropriate process to make sure we understand the implications 
on small business.
    Senator Sessions. It should, because you don't want to just 
consolidate every small business who can no longer compete. And 
then it clears the field for the megabusiness.
    Ms. McCarthy. Yes.
    Senator Sessions. Ms. McCarthy, in November President Obama 
stated ``The temperature around the globe is increasing faster 
than was predicted even 10 years ago.'' I thought that was 
curious, because I had seen some data that indicated that that 
was not true, in fact, that it had been fairly flat. And 
certainly, so I wrote Administrator Jackson and asked her 
simply this, to provide the data supporting the President's 
assertion along with ``a chart of the actual global average 
temperature increases since 1979 versus the latest IPCC 
predictions.'' And you responded to that. But it didn't respond 
to my question.
    You basically said, in February of this year, ``There are 
multiple lines of evidence that clearly demonstrate that 
average global temperatures are rising.'' So you didn't provide 
any specific data relating to the question I asked to the 
President's statement.
    Ms. McCarthy. Senator, would you like me to take another 
shot at that?
    Senator Sessions. Would you?
    Senator Boxer. And if I could just say, Senator, I am 
adding 2 minutes to your time, so you will get your 7. And if 
Senator Boozman wants his 7, he will get that as well. Go 
ahead.
    Senator Sessions. Thank you, Madam Chair.
    Ms. McCarthy. I am more than happy to take a look at that, 
Senator, and get back to you.
    Senator Sessions. Very good. I noticed a March 30th this 
year article in The Economist, a publication that supports 
anthropogenic climate change, stated: ``Over the past 15 years, 
air temperatures at the Earth's surface have been flat, while 
greenhouse gas emissions have continued to soar.'' Do you 
dispute that?
    Ms. McCarthy. Actually I don't know the study, Senator. But 
I also want to make sure that you don't look at me as a climate 
scientist. I do rely on those that are. And I am more than 
happy to work with them in order to take a look at the study 
and get back to you, if that would be of interest, Senator.
    Senator Sessions. All I am saying, it makes sense to me, it 
always has created some common-sensical idea that a blanket 
effect of CO<INF>2</INF> and other greenhouse gases might 
increase the temperature. And we have seen some temperature 
increase over the years, over the century maybe. But it hasn't 
been following the models. Much below the recent model, may we 
have a quick chart? The red line represents what the IPCC 
average of their models show. And the other lines show that it 
is not reaching that level. I hope the President will be 
accurate in his statements.
    Senator Boxer. Thank you. Senator Boozman, you get 7. And 
then Senator Vitter gets 5 and I get 5. And then you are done.
    OK, go ahead.
    Senator Boozman. Thank you for being with us, Ms. McCarthy, 
so long. We do appreciate that.
    Ms. McCarthy. My honor, Senator.
    Senator Boozman. Don't feel bad, in regard to instant 
messaging. To the embarrassment of my three daughters, I don't 
have a clue either as to how to do that.
    Let me just ask you a few things that I think are real 
important. According to EPA and GAO, replacing a water 
infrastructure funding shortfall of over $500 billion over the 
next two decades, which amounts to about $25 billion annually. 
Amazingly this doesn't even take into account the hundreds of 
billions of compliance costs that are going through, that 
municipalities are facing, due to EPA's expansion of the Clean 
Water Act requirements, which sometimes are certainly right. 
Sometimes I think they are overly aggressive.
    But in our communities, the compliance costs are falling on 
ratepayers that have very little discretionary income. The 
communities are in trouble themselves. The increased cost 
disproportionately hit low income families and economically 
distressed communities. In response to this, a growing number 
of cities, groups like the U.S. Conference of Mayors, the 
National League of Cities, the National Association of Clean 
Water Agencies, have been seeking increases in flexibility to 
prioritize Clean Water Act requirements and to develop longer 
compliance schedules to meet the increasingly complex 
requirements.
    I guess what I would ask is, so far the EPA is actually 
working to partner in these efforts to some extent. I guess my 
questions are, will you continue to support EPA's integrated 
planning and permitting framework which is designed to maximize 
public utility flexibility in meeting the costly requirements 
of the Clean Water Act?
    Ms. McCarthy. Senator, I think you will find you have a 
very big friend in me. I worked for States and local 
communities, I understand the stress that they are under and 
the need for us to be flexible, as well as support these 
efforts.
    Senator Boozman. And along with that, do you have plans to 
make perhaps the integrated planning even a more useful tool to 
utilities across the Country?
    Ms. McCarthy. If there is a way in which we can do that, I 
think that is the smartest thing available to us.
    Senator Boozman. The other thing that has come up is what 
we would like to do, through congressional action or whatever, 
is to extend longer Clean Water Act permits. One of the things 
that we have got going on right now that really is impacting 
the economy in so many ways is you just don't know what the 
future holds. So would you be willing to look at longer permit 
processing so we can have a longer period that the communities 
can plan?
    Ms. McCarthy. I wish I could tell you I knew enough about 
that issue to answer that firmly. But because I haven't worked 
in this area, why don't I go back and I will take a look at 
what flexibilities there are. If I am confirmed, I am more than 
happy to work with you on it, Senator. That would be great.
    Senator Boozman. Good. Thank you.
    One of the things that occurs, the EPA frequently issue 
proposed rule that really are complex and lengthy, often taking 
years with the studies, gathering the information, large 
volumes and sometimes thousands of facilities to be regulated. 
Frequently the EPA provides only 60 days for comments in regard 
to some of these proposed rules. That to me is a little bit on 
the short side.
    So I guess again, my question is, would you be willing to 
look at a longer period of time or to have somebody actually, I 
am suggesting 90 to 100 days, but I don't really base that on 
anything. Sixty days to me is too long, 60 days just to read 
the stuff is probably adequate.
    But really to look into the underlying stuff. Would you be 
willing to look at that?
    Ms. McCarthy. I am more than happy to look at that issue.
    Senator Boozman. Good. Thank you very much.
    The other thing is that, I am an optometrist by training. 
So I am familiar with the scientific world. The idea that we 
have taxpayer financed databases that we can use to conduct 
cost-benefit analysis by EPA or really by any other agency or 
really any other entity that is making these really difficult 
decisions that have tremendous impact, I don't understand why 
all of that information isn't being made public. I was at the 
White House yesterday, in the evening, and visited with the 
President with a group. I walked through the security without 
any problems, they don't look at me because I am a United 
States Senator. But the idea that I can't get the information 
that I need to see that the studies that you are doing, and 
again, I have a trust in the agency. We have oversight of the 
agency. I just don't understand that.
    Ms. McCarthy. Senator, the information that we have not 
been able to gather and share is information that is 
confidential. It relates to medical records and information 
that can trace back to specific people. We are required to 
protect that as are the scientists.
    Having said that, if there is anything that we can do to 
build a more trusting relationship on these issues, I want you 
to feel more confident as time goes by that we are doing 
sciences we are supposed to do, that we are basing our 
decisions on the best science.
    Senator Boozman. But that can be redacted, as far as the 
people and that sort of thing. And again, you dumped out a 
bunch of information that you shouldn't have dumped out that 
you acknowledge that you shouldn't have dumped out with 
people's names and all this kind of stuff. So again, we talk 
about transparency and this and that. I don't know that there 
is any, in any other area of research, those things are taken 
care of, where you redact, you do this and that, names, things 
like that. But the basic science can be given. There is just no 
excuse for that.
    Ms. McCarthy. Senator, I am more than happy to work with 
you. If you think there are things that we are not doing, I 
know that the Administration is fully committed to transparency 
and I am personally. So we should sit down and if there is 
something we are doing to not get you data that you think 
should be available to you, we will take those steps.
    Senator Boozman. Good. Thank you very much.
    Senator Boxer. Thank you. Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. Just to follow up 
on my colleague's question, because as you know, that was one 
of our central points of these five, we have been very specific 
about what we think you are not doing. I think John is exactly 
right. You can give us all of this data once it has been 
scrubbed of personal, identifying information. That is exactly 
what we are asking for. That is absolutely possible. That has 
been asked for for years with regard to the key studies 
underlying your decisions. It has not been provided. So I just 
remake that request. I think we have been extremely specific.
    On another point, there has been a lot of discussion about 
cost-benefit analysis. All of us think that is being done in an 
inadequate way under the law. Specifically, Section 321(a) of 
the Clean Air Act requires the EPA to conduct continuing 
evaluations of potential lost or shift of employment economy-
wide. You have been the leader on some huge air regs in the 
last three and a half years. Has a Section 321(a) analysis ever 
been done?
    Ms. McCarthy. It has been done by the agency, yes, not on 
those particular rules.
    Senator Vitter. On those huge rules, I mean, what I am 
talking about that you have led on, Utility MACT, et cetera, 
ongoing, biggest impacts in history. Has a 321(a) analysis been 
done on that?
    Ms. McCarthy. Senator, I should be clear, the whole economy 
analysis wasn't done on a Clean Air Act rule. It was done on a 
larger analysis that the agency undertook. So let me answer 
your question. When we did those particular rules, we did, we 
followed the directives that we are allowed to follow. We used 
modeling available to us, the most appropriate we had 
available. We used all of the data available to us, we believe 
we did it in a robust way and made that transparent. It went 
through a public comment process.
    To the extent that we could define the economic 
consequences of those rules using the best modeling available, 
we believe we did that, Senator. But if there are other things 
that we are not doing that you think we should be doing, I am 
more than willing to explore that.
    Senator Vitter. So 321(a) analysis was not done in those 
cases?
    Ms. McCarthy. That is correct.
    Senator Vitter. I think that is required and appropriate.
    The analysis that was done, for instance, did it take 
account of the negative impact of increased energy costs 
economy-wide?
    Ms. McCarthy. It looked at energy, expected energy costs, 
it looked at expected job, either growth or loss.
    Senator Vitter. So it specifically quantified expected 
energy cost increases and measured those impacts economy-wide?
    Ms. McCarthy. Senator, I am probably not well positioned to 
answer these questions. But I am more than happy to do that 
following the meeting, and we can walk through those issues.
    Senator Vitter. This is a huge body of your work. It is a 
pretty fundamental question. We have these big regs. Are we 
measuring spikes in energy costs? That would be a big factor. 
My understanding is, that was not done on an economy-wide 
basis. That seems to me it is a glaring omission.
    Let me move on to another big concern of ours, which is No. 
5 in our list, which is the sue and settle practice. We all 
have the concern that in some cases, EPA is sued by outside 
left-wing environmental groups. The group and the EPA are the 
only two parties in the lawsuit. You come up with a settlement 
and the truly impacted parties never have a seat at the table. 
Never get input, never say boo.
    We asked you to change that practice and so far you haven't 
agreed to that full request. Shouldn't an affected group like 
the States, for instance, on the regional haze issue, shouldn't 
they have a seat at the table? Shouldn't they know any proposed 
settlement? Shouldn't they have input into that?
    Ms. McCarthy. Senator, what I can speak to is how we 
practice it under the Clean Air Act. The Clean Air Act actually 
does require public comment on settlement agreements. It does 
offer an opportunity for that comment. There are many 
additional opportunities beyond that.
    Senator Vitter. Is that before or after the agreement has 
been made.
    Ms. McCarthy. It is before the agreement is finalized. And 
States and others can comment and do comment on that. And we do 
that take that into consideration.
    Senator Vitter. So the agreement has been agreed to by the 
EPA, not finalized.
    Ms. McCarthy. Actually the agreement is reached with the 
EPA and the Department of Justice. And we put that draft 
agreement out, our proposed agreement out for public comment.
    Senator Vitter. Have you ever changed agreements based on 
comment?
    Ms. McCarthy. I can't answer that question, Senator. I 
don't know the full history of the agency.
    Senator Vitter. Was regional haze changed in every way when 
the States say, time out, we are supposed to be the primary 
player on the regional haze issue under the statute?
    Ms. McCarthy. We worked very closely with States on 
regional haze issues, and we worked hard to make it a State 
implementation plan to the extent that we can.
    Senator Vitter. Have you responded to their FOIA requests 
on regional haze?
    Ms. McCarthy. I am not sure what specific one you are 
talking about, but I can certainly get back to you, Senator, 
and find out.
    Senator Vitter. OK. I would like that for the record. Thank 
you.
    Ms. McCarthy. Thank you.
    Senator Boxer. Assistant Administrator McCarthy, does the 
EPA use peer-reviewed science when crafting Clean Air rules? 
And does the agency analyze the impacts of these rules, 
including on affected industries using widely accepted economic 
models?
    Ms. McCarthy. That is how we do our business, Senator, yes.
    Senator Boxer. Does the Office of Management and Budget 
also review the agency's analysis to ensure it meets legal 
requirement and official guidelines?
    Ms. McCarthy. We do.
    Senator Boxer. And does the public, including regulated 
industry, also get to review and comment on these rule and 
point out anything that they perceive as a problem?
    Ms. McCarthy. Yes, they do, Chairman.
    Senator Boxer. And I want to place in the record this 
letter that was waved around by one of our Senators, Barrasso, 
and he said, oh, you were told of the EPA to use your name, 
don't use a false name. First of all, here it is. Guess what. 
It is a letter, it is going in the record, without objection.
    [The referenced information follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer.The reason the letter was written, and it is 
an internal EPA letter, is because under Stephen Johnson, there 
was destruction of hundreds on hundreds of emails. So it 
started an investigation into what the heck happened to these 
emails. And as they went through them and they were destroyed 
automatically every 90 days, and the Johnson people said, well, 
we printed up anything we thought was important and destroyed 
the rest.
    That is the genesis of this whole darned thing. So if this 
is where my Republican friends want to go, bless their hearts, 
we are ready. Because this whole issue is a non-issue in terms 
of this EPA now. So let's get that clear.
    Gina, I want to say to you how much I admire you, how much 
I thank you on behalf of my children and my grandchildren for 
your years of bipartisan service to our Nation. The work you 
have done already is a legacy. I just hope and pray that my 
colleague will give you this opportunity to continue to serve. 
I think you have proven here today that you are in this for the 
right reasons.
    I also, since I am thanking you, I want to thank your 
husband and I want to thank your kids. It is a sacrifice. It is 
a balance. And I want to thank them so much, because I know 
they are very proud of the work you do.
    So in conclusion, I would hope that we can move this 
nomination swiftly. I certainly will work with Senator Vitter 
and all my colleagues to try and mark this up as soon as 
possible. I can't announce that we have an agreed-upon date, 
but I am very hopeful we will have one soon. And I would ask if 
you would agree to take the oath in this case. If you would 
raise your right hand.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information, subject to 
appropriate and necessary security protection, with respect to 
your responsibilities?
    Ms. McCarthy. I do, Chairman.
    Senator Boxer. And do you agree to ensure that testimony, 
briefings, documents and electronic and other forms of 
communication are provided to this Committee and its staff and 
other appropriate committees in a timely manner?
    Ms. McCarthy. I do.
    Senator Boxer. And Assistant Administrator McCarthy, do you 
know of any matters which you may or may not have disclosed 
that might place you in any conflict of interest if you are 
confirmed?
    Ms. McCarthy. I do not, Chairman.
    Senator Boxer. With those answers, we thank you for your 
service. We thank you for being with us today. We thank your 
staff, we thank your family. In advance, I thank my colleagues 
for working with me to make sure this goes smoothly. We stand 
adjourned.
    [Whereupon, at 1:34 p.m., the Committee was adjourned.]
    [Additional statements submitted for the record follow:]

                Statement of Hon. Frank R. Lautenberg, 
               U.S. Senator from the State of New Jersey

    Madam Chairman, our Nation faces significant environmental 
and public health challenges, and to meet them, we need a 
strong leader at the EPA who will make protecting public health 
a top priority. We need a leader who will not rest until every 
community is free of poisons that threaten our families or 
until every child has clean air to breathe and clean water to 
drink.
    In Gina McCarthy, the President has made a great choice for 
EPA Administrator. He has nominated a strong, well-qualified 
candidate, and her nomination represents an opportunity to make 
great progress on crucial environmental issues. She brings 
immense experience at both the Federal and State levels, under 
both Democratic and Republican administrations, and the Senate 
should confirm her without delay.
    During her time at the EPA, she has led the Office of Air 
and Radiation as the Assistant Administrator and done 
incredible work to protect our families and children from air 
pollution. Among her accomplishments in that leadership role 
are: historic clean air standards for power plants, landmark 
auto pollution standards, and many other actions to protect 
public health and keep pollution out of the air we breathe. 
Together, these standards will prevent asthma attacks, heart 
attacks, respiratory diseases, and even premature deaths.
    As Assistant Administrator, Ms. McCarthy not only fulfilled 
EPA's mission to protect public health and the environment, she 
also listened to concerns from industry, States, and numerous 
other stakeholders to ensure that EPA's decisions were fair, 
science-based, and transparent. I am confident that the same 
approach will guide her as Administrator.
    As we move forward, it is important to address the crucial 
challenges the EPA--and its new Administrator--must move 
decisively to meet, such as reforming the Toxic Substances 
Control Act (TSCA), tackling climate change, ensuring clean air 
and clean water, and cleaning up toxic sites across the 
country.
    One of my top priorities is reforming America's broken 
toxic chemical laws. These laws have not been significantly 
updated since their original passage in 1976. That's more than 
35 years ago. As a result, EPA has limited authority to test 
and ban toxic chemicals to protect the public and ensure that 
dangerous chemicals--some of which can cause cancer--aren't in 
the everyday products found in our homes.
    Yesterday, I introduced the ``Safe Chemicals Act'' along 
with Senator Gillibrand and 27 other cosponsors. This bill 
would reform TSCA and ensure that the EPA has the tools it 
needs to protect families from toxic chemicals. And as we work 
for its passage this Congress, we need a strong EPA 
Administrator to help move the fight forward.
    The next EPA Administrator will also play an important role 
in our battle against climate change. We have a real 
opportunity to slow climate change, but it will only be 
possible if the EPA exercises its authority to set global 
warming pollution standards. Our next EPA Administrator must 
take this role and responsibility seriously, which Gina 
McCarthy does. In New Jersey, Superstorm Sandy served as a 
painful reminder that climate change is a force that directly 
threatens the well-being of our residents and communities.
    Acting to rid our atmosphere of global warming pollutants 
can also work hand in hand with ensuring that all Americans 
have clean air to breathe and clean water to drink. The EPA's 
recent standards for smog, auto pollution, and mercury--which 
is brain poison--will be critical to cleaning up our 
environment, but we must remain vigilant as we continue to 
improve the quality of our water and air.
    Last, our next EPA Administrator must be dedicated to 
cleaning up our toxic legacy. I'm proud to have authored the 
``Toxic Community Right-to-Know Act,'' which created the Toxic 
Release Inventory and gives families the right to know when 
they are at risk of toxic pollution in their neighborhood. But 
we must do more. Right now, in too many communities children 
grow up exposed to chemicals and other pollutants that will 
permanently stunt their growth, diminishing their futures 
before they've even entered a classroom.
    On all of these issues, former EPA Administrator Lisa 
Jackson has been a great ally and a strong leader. And I know 
that there is no one better than Gina McCarthy to carry on our 
important shared work.
    I look forward to supporting Gina McCarthy's nomination to 
be the next Administrator of the Environmental Protection 
Agency, and I strongly urge my colleagues to do the same.

                     Statement of Hon. Mike Crapo, 
                  U.S. Senator from the State of Idaho

    Thank you, Gina McCarthy, for being here with us today to 
discuss your nomination and for your willingness to serve. 
There is no doubt that the agency faces considerable 
challenges.
    Having served as Assistant Administrator since 2009, no one 
on this committee needs to explain to you the unique challenges 
that come with running the EPA.
    In fact, in a letter Republicans on this committee recently 
sent to you on your nomination, we outline several critical 
issues we have with the agency in relation to transparency in 
rulemakings and scientific review. We all look forward to your 
prompt response to that letter as we continue to review your 
nomination.
    To be sure, there is not an agency that I hear more about 
from Idahoans in a negative way than the EPA. I continue to 
receive the input of Idahoans about the impacts of EPA's 
regulations on family farms, ranches and businesses.
    The EPA has become synonymous with overly burdensome 
regulation, bureaucratic paralysis and economic decline. In 
fact, the EPA leads other Federal agencies with the most 
regulatory actions currently under review.
    Business owners know to plan for change. In our evolving, 
global economy, they understand that there will be ups and 
downs due to market and policy changes. They understand that 
operating a business, whether it is a ranch, farm or retail 
store, involves risks. However, they should be able to expect 
that our Government will not pursue Federal policies when the 
benefits do not outweigh the costs.
    Unfortunately, there are too many examples of Federal 
regulations that make it harder to do business and maintain 
jobs while providing little benefit to their intended purposes. 
And that is just on the business side of the spectrum.
    To individuals, the EPA is often associated with loss of 
property rights, constraint of Federal freedoms and an ever-
increasing financial burden to comply with rules promulgated by 
faraway officials on local communities.
    As a lawmaker, parent and active community member, I have 
had the great opportunity to see the Federal Government and 
local stakeholders work together to find solutions based on 
collaboration, trust and ultimately compromise for the greater 
good of the group.
    Despite my nearly two decades of efforts at collaborative 
problem-solving, I find myself confounded by the morass and 
multitude of problems confronting the EPA.
    As we survey the most contentious debates in the West over 
resource and land management, we see States, counties, local 
governments and concerned citizens coming together to find 
solutions. It is difficult for me to understand why such 
achievements are so absent with the EPA.
    Should you be confirmed, I will look to you to begin a new 
chapter with the EPA--one that sees the agency as part of a 
community, looking for solutions, working with community and 
property owners--not focusing on enforcement actions and heavy-
handed penalties.
    I am interested in an EPA that builds trust and does not 
break down morale, an agency looking for solutions, not a 
behemoth extracting payments, and an agency ready for reform, 
to join the Federal family of agencies working with and not 
against its citizens.
    To provide an example, the EPA's Brownfields Program is a 
step in the right direction, as it enables working with 
property owners and communities to clean contaminated sites to 
enable business and job growth. I recently co-sponsored bi-
partisan legislation with colleagues on this committee to 
reauthorize the program.
    As you have often said, Ms. McCarthy, you are passionate 
about supporting the disenfranchised, the middle and working 
classes. I could not agree more. However, I will carefully 
evaluate your answers today to see how that commitment can 
usher in to a new EPA.
    Not an agency competing with the IRS for most feared 
Federal agencies. One that works with communities and citizens 
to provide environmental benefit, not at the expense, but at 
the collective benefit of the citizens it serves.
    I expect you to work closer with communities and local 
governments.
    It is my hope that the new EPA leadership will not seek to 
administratively expand its regulatory umbrella, but rather 
carry out its responsibilities within the confines of 
congressional intent.
    While I support ensuring that science, research and other 
tools are available to leave our air, water and soil better 
than we found them for future generations, layering on more 
regulations, burying American businesses in more paperwork and 
imposing overwhelming penalties are not the best means to 
achieve this goal. Rather, working with property owners and 
communities to help implement needed changes is far more 
productive.
    Again, thank you for the opportunity to discuss your 
nomination and the direction of the agency.

    [Additional material submitted for the record follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
